<html>
<title> - RESTRUCTURING GOVERNMENT FOR HOMELAND SECURITY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             RESTRUCTURING GOVERNMENT FOR HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, DECEMBER 5, 2001

                               __________

                           Serial No. 107-19

                               __________

           Printed for the use of the Committee on the Budget


  Available on the Internet: http://www.access.gpo.gov/congress/house/
                              house04.html


                        U.S. GOVERNMENT PRINTING OFFICE
76-606                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                        COMMITTEE ON THE BUDGET

                       JIM NUSSLE, Iowa, Chairman
JOHN E. SUNUNU, New Hampshire        JOHN M. SPRATT, Jr., South Carolina,
  Vice Chairman                        Ranking Minority Member
PETER HOEKSTRA, Michigan             JIM McDERMOTT, Washington
  Vice Chairman                      BENNIE G. THOMPSON, Mississippi
CHARLES F. BASS, New Hampshire       KEN BENTSEN, Texas
GIL GUTKNECHT, Minnesota             JIM DAVIS, Florida
VAN HILLEARY, Tennessee              EVA M. CLAYTON, North Carolina
MAC THORNBERRY, Texas                DAVID E. PRICE, North Carolina
JIM RYUN, Kansas                     GERALD D. KLECZKA, Wisconsin
MAC COLLINS, Georgia                 BOB CLEMENT, Tennessee
ERNIE FLETCHER, Kentucky             JAMES P. MORAN, Virginia
GARY G. MILLER, California           DARLENE HOOLEY, Oregon
PAT TOOMEY, Pennsylvania             TAMMY BALDWIN, Wisconsin
WES WATKINS, Oklahoma                CAROLYN McCARTHY, New York
DOC HASTINGS, Washington             DENNIS MOORE, Kansas
JOHN T. DOOLITTLE, California        MICHAEL E. CAPUANO, Massachusetts
ROB PORTMAN, Ohio                    MICHAEL M. HONDA, California
RAY LaHOOD, Illinois                 JOSEPH M. HOEFFEL III, Pennsylvania
KAY GRANGER, Texas                   RUSH D. HOLT, New Jersey
EDWARD SCHROCK, Virginia             JIM MATHESON, Utah
JOHN CULBERSON, Texas                
HENRY E. BROWN, Jr., South Carolina  
ANDER CRENSHAW, Florida
ADAM PUTNAM, Florida
MARK KIRK, Illinois

                           Professional Staff

                       Rich Meade, Chief of Staff
       Thomas S. Kahn, Minority Staff Director and Chief Counsel













                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, December 5, 2001.................     1
Statement of:
    Dr. Scott Lillibridge, Special Assistant to the Secretary of 
      Health and Human Services for Bioterrorism.................     3
    Joseph Mahaley, Director, Office of Security Affairs for the 
      Department of Energy.......................................     8
    Kenneth Baker, Principal Deputy Administrator, Defense 
      Nuclear Nonproliferation, Department of Energy.............    13
Prepared statement of:
    Dr. Lillibridge..............................................     6
    Mr. Mahaley..................................................    11
    Mr. Baker....................................................    16











             RESTRUCTURING GOVERNMENT FOR HOMELAND SECURITY

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m. in room 
2118, Rayburn House Office Building, Hon. Jim Nussle (chairman 
of the committee) presiding.
    Members present: Representatives Nussle, Thornberry, Ryun, 
Collins, Fletcher, Watkins, Hastings, Schrock, Spratt, 
McDermott, Bentsen, Price, Moran, Hooley, McCarthy, Moore, and 
Holt.
    Chairman Nussle. Good morning. The Committee on the Budget 
will come to order. We are not where we are supposed to be, 
which is especially fun for me today, because when I was a 
freshman Member of Congress, I served on the Banking Committee, 
and it was in this room where I had some of my very first 
committee meetings, and Henry Gonzales, whose picture hangs on 
the wall over here to my right, was the chairman. It was always 
a very interesting experience to work with Henry on banking 
issues, a real gentleman and someone that I admired, even 
though we disagreed on a number of issues at that time. But it 
is a real honor for me to be back in the Finance Committee 
room, Financial Services Committee room, Banking Committee 
room.
    We appreciate Chairman Oxley and the Finance Committee's 
willingness to allow us to use the hearing room, as ours is 
being renovated, hopefully so that we can begin the budget 
process when we return to session next year.
    Today's hearing is the second in a series of Budget 
Committee hearings that will examine how the Federal Government 
organizes itself for fighting terrorism in ensuring domestic 
security. As our previous hearing made clear, with at least 43 
agencies across the Federal Government having some 
responsibility for combatting terrorism, it is vital that we 
know who is in charge and what the coordinating mechanisms are 
and who controls those resources.
    Strengthening our national security against deadly 
criminals and terrorists, requires inner agency cooperation and 
coordination on an unprecedented scale. This hearing will focus 
on the following key issues, what deficiencies and preparedness 
were demonstrated by events of September 11, what is our 
current state of preparedness, what changes have been made and 
what changes are being considered for the future in programs, 
organization, infrastructure and how will the budget impact of 
all of these very important questions. We know that we are 
going to need to make some additional investments, and where 
are those greatest needs for those investments?
    The war on terrorism is being fought against an 
unconventional enemy with no moral inhibition about using 
unconventional weapons. We may be facing chemical threats, 
biological warfare, or even the nightmare scenario of something 
nuclear. But the frightening impact of such an attack on the 
United States has to be confronted, otherwise we will be 
unprepared for the catastrophe and the reality that follows.
    The cost of an uncoordinated, ineffective response will be 
paid in human lives, loss of civil liberties and economic 
disruption that could fundamentally undermine our national 
security and the way of life.
    Testifying today will be the following individuals, and we 
are honored to have them all here today. Scott Lillibridge, who 
is the special assistant to the Secretary of Health and Human 
Services for bioterrorism. He will join with us today to 
discuss the status of the Health and Human Services' response 
to the anthrax attacks and potential enhancements to counter 
future attacks. Joseph Mahaley, director of the Office of 
Security Affairs for the Department of Energy. He will be here 
to discuss the status of the Department of Energy's security 
measures in light of the unprecedented terrorist threats. 
Kenneth Baker, principal deputy administrator for the Defense 
Nuclear Nonproliferation, Department of Energy, will be here to 
discuss the status of the government's nonproliferation 
programs.
    I look forward to a very interesting and candid exchange. 
The reason for this hearing today was because the leadership of 
our ranking member, John Spratt, who requested it at the 
previous hearing. We appreciate the suggestion. We were very 
interested in accommodating this hearing as a result, and I 
recognize you now for any statement you would like to make.
    Mr. Spratt. Thank you very much, Mr. Chairman. I do 
appreciate the fact that you have called this hearing and have 
worked to make it an effective and fruitful hearing.
    Since January of this year, our budget has changed, and 
changed drastically. We began the year with a situation where 
we were flushed with surpluses, $5.6 trillion according to CBO 
over the next 10 years. Right now we find that $5.6 trillion 
surplus diminished to as little as $2.6 trillion, and most of 
that consists of Social Security and Medicare.
    There have been policy changes. There have been economic 
changes, but there has also been a change which we have yet to 
monetize, to put a price tag or a dollar cost upon, and those 
are the changes that follow from the events of September 11. We 
have been privileged for all of our history to live buffered by 
two oceans, privileged by geography. We have largely not had to 
contend with our enemies on our own soil. We could deal with 
them somewhere else. Now we are going to have to turn our focus 
to internal defenses, as much as external defense, and deal 
with vulnerabilities that have been there for years, decades 
literally, but we have not had to worry about them because they 
weren't problems.
    The security of our airlines, the security of our 
transportation system, our electricity grid, all kinds of 
different threats. And one of the threats that most concerns us 
is the threat of chemical, biological and nuclear warfare due 
to the spread of this kind of technology.
    What we have seen now is we have got an enemy that has 
insidious potential, and coupled with these kinds of weapons, 
it could do enormous damage to our country in very unsuspecting 
places. The question for us on the Budget Committee is, what 
does this add to the budget, what is the cost of it going to 
be? We have seen a lot of the back-of-the-envelope exercises as 
we begin to identify these particular vulnerabilities and try 
to decide or prioritize which need to be protected first.
    Usually we see the initial cost. That is only part of it. 
We also need to know the recurring costs.
    Today is not just a satellite hearing. Today is what the 
new budget will have to contend with and accommodate if we are 
going to directly and squarely address the threat that faces 
the United States of America today. We appreciate all of our 
witnesses coming in from different viewpoints, and we look 
forward to your testimony and your participation in the 
hearing.
    Chairman Nussle. Thank you, Mr. Spratt. I ask unanimous 
consent that all members have 7 days to submit written 
statements for the record at this point. Without objection, so 
ordered.

 STATEMENTS OF DR. SCOTT LILLIBRIDGE, SPECIAL ASSISTANT TO THE 
   SECRETARY OF HEALTH AND HUMAN SERVICES FOR BIOTERRORISM, 
ACCOMPANIED BY JOHN MCBROOM, DIRECTOR OF EMERGENCY MANAGEMENT; 
 JOSEPH MAHALEY, DIRECTOR, OFFICE OF SECURITY AFFAIRS FOR THE 
   DEPARTMENT OF ENERGY; AND KENNETH BAKER, PRINCIPAL DEPUTY 
ADMINISTRATOR, DEFENSE NUCLEAR NONPROLIFERATION, DEPARTMENT OF 
                             ENERGY

    Chairman Nussle. Let us begin today with Scott Lillibridge, 
special assistant to the Secretary of Health and Human Services 
for bioterrorism. We welcome all three of you, but Special 
Assistant Secretary of Health and Human Services, we are very 
interested in your testimony, and we would ask your written 
statement to be in the record, and we would ask you to proceed 
as you would like. Welcome.

                 STATEMENT OF SCOTT LILLIBRIDGE

    Dr. Lillibridge. Thank you. Mr. Chairman and members of the 
committee, I am Scott Lillibridge, Special Assistant to the 
Secretary for National Security and Emergency Management. Thank 
you for having me here today to discuss HHS's role in preparing 
our Nation for nuclear, biological and chemical attacks.
    Our department's work has primarily been in the area of 
bioterrorism response. To say we have been busy lately would be 
an understatement. Under Secretary Thompson's leadership, we 
have mounted an unprecedented national public health response 
involving our agencies, our State and local health departments, 
and all the capacities of NIH, FDA, CDC and our other agencies.
    HHS is the primary agency responsible for the health and 
medical response under the Federal response plan. Under FEMA's 
Federal response plan. This plan provides HHS with the 
framework to respond with FEMA and 26 other Federal agencies, 
along with the American Red Cross. Prior to September 11, the 
attack on the United States, HHS, through the Centers for 
Disease Control and Prevention, had made substantial gains in 
addressing HHS's role in preparing for the response to 
bioterrorism. Since September 11, this progress has been 
dramatically accelerated and HHS has been in constant 
communications with its agencies, as well as other Federal, 
State and local governments in order to assure our preparedness 
to protect the Nation's health in future attacks.
    To support that process, President Bush has requested an 
additional $1.5 billion as a supplemental to the fiscal year 
2002 request to strengthen our ability to respond to 
bioterrorism, particularly at the State and local level. Within 
HHS, the component agencies are each moving ahead with programs 
to further support these efforts.
    Allow me to describe some of these programs. Over the past 
3 years, CDC has awarded grants to 50 States, one territory, 
and four major metropolitan departments to support the goals of 
building infrastructure and increasing response capacity. The 
funded programs have included for this year, at least a request 
for 300 million more for State and local preparedness that 
include the Health Alert Network, our Laboratory Response 
Network, and the Epidemiologic or Disease Detective Information 
Exchange System.
    The Health Alert Network is a nationwide integrated 
electronic communication system for public health professionals 
to share health advisories, distance-based learning and 
laboratory findings and other information relevant to disease 
outbreaks.
    It proved useful during the anthrax mobilization over the 
past 2 months. Health Alert Network also provides high-speed 
Internet connections and tailored content to local health 
officials and other essential personnel.
    The laboratory response network is a partnership among the 
Association of Public Health Laboratories, APHL, CDC and the 
Federal Bureau of Investigation, State, public health 
laboratories and the Department of Defense and the Nation's 
clinical laboratories. The LRN, as it is called, is designed to 
ensure that the highest level of containment, expertise and the 
identification of rare and lethal biologic agents is available 
at the most local level in an emergency event. The LRN also 
includes the rapid response and advanced technology laboratory 
at CDC, which has the sole responsibility for providing rapid 
and accurate triage and subsequent analysis of biologic agents 
suspected or terrorism--suspected or being terrorist weapons. 
It is been useful in our response for hoaxes and real response 
over the past several months.
    The final example is the Epidemic Information Exchange 
System, a secure Web-based communications network that will 
strengthen bioterrorism preparedness efforts by facilitating 
the sharing of preliminary information about disease outbreaks 
and other health events among officials across jurisdictions 
and provide experience in the use of secure communications for 
public health workers.
    The HHS Office of Emergency Preparedness has also been 
providing assistance at the State and local level, by 
developing local metropolitan medical response systems, MMRS. 
Through contractual relationships, the MMRS uses existing 
emergency response systems, emergency management, medical and 
mental health providers, public health departments, law 
enforcement, fire departments, EMS and the national guard to 
provide an integrated unified response to mass casualty events. 
As of September 30th, 2001, this office had contracted with 97 
municipalities to provide MMRS systems and during fiscal year 
2002, we intend to invest in 25 additional cities for a total 
of 122 locations for bioterrorism-related planning through the 
MMRS system.
    Our Office of Emergency Preparedness also coordinates the 
National Disaster Medical System, a group of more than 7,000 
volunteer health and support professionals who can be deployed 
anywhere in the country to assist communities in which local 
response systems are overwhelmed. MDS also includes a 
partnership with the Department of Veterans' Affairs, 
Department of Defense, and the Federal Emergency Management 
Agency.
    One area of particular interest has been the development of 
the National Pharmaceutical Stockpile. CDC has established and 
manages the National Pharmaceutical Stockpile, which provides 
us with the ability to rapidly respond to a domestic biological 
or chemical terrorist event with antibiotics, antidotes, 
vaccines and medical material to help save lives and prevent 
the further spread of disease, resulting from a terrorist 
attack. The administration has included $644 million to expand 
that program. The PS program also provides an initial broad-
based response within 12 hours with Federal authorization to 
deploy Push Packs that target specific communities stricken by 
terrorism.
    The first example of deployment was following the World 
Trade Center. As you may have heard, HHS has recently awarded a 
$428 million contract to Acambis Baxter, Incorporated, to 
produce 155 million doses of smallpox vaccine by the end of 
2002. Those doses, added to the current quantity in the 
National Pharmaceutical Stockpile, would be enough to treat 
every American in the event of a smallpox bioattack.
    An example of FDA funding initiatives includes a $61 
million to enhance the frequency and quality of imported food 
inspections and to modernize the import data system to enable 
us to detect tainted food. This funding will also help provide 
for 410 new FDA inspectors an help ensure that our food is 
better protected. FDA is also requesting additional resources 
to assist with these development and licensing of vaccines, 
therapeutics and blood products to counter bioterrorism.
    I would like to mention briefly our research activities, 
which are headed by our National Institutes of Health that 
include the development of new treatments for the complications 
of smallpox vaccination, improvements in developing new 
vaccines for items such as anthrax and trials to determine the 
extent that the current smallpox vaccine can be stretched until 
the new contracts kick in.
    In conclusion, the Department of Health and Human Services 
has been and continues to be committed at every level in 
ensuring the health and medical care of our citizens. We have 
made substantial progress to date in enhancing the Nation's 
capacity to respond to a bioterrorism event, and these 
preparations ensured a strong response during the recent 
emergencies.
    Mr. Chairman, that concludes my prepared remarks, and I 
would be pleased to answer any questions that you or the 
members of the committee may have. Thank you.
    Chairman Nussle. Thank you very much.
    [The prepared statement of Scott Lillibridge follows:]

Prepared Statement of Scott R. Lillibridge, M.D., Special Assistant to 
      the Secretary of Health and Human Services for Bioterrorism

    Mr. Chairman and Members of the Committee, I am Scott Lillibridge, 
the Special Assistant to the Secretary for National Security and 
Emergency Management. Thank you for inviting me here today to discuss 
the HHS role in preparing our Nation for nuclear, biological and 
chemical threats, primarily in the area of bioterrorism response. This 
had already been a major focus of HHS activities, and the horrific 
events of September 11, and the subsequent events related to anthrax 
have only sharpened that focus.
    HHS is the primary agency responsible for the health and medical 
response under the Federal Emergency Management Agency's (FEMA's) 
Federal Response Plan (FRP). This plan provides HHS with a framework to 
respond with FEMA and 26 other Federal departments and agencies, along 
with the American Red Cross.
    Prior to the September 11 attack on the United States, HHS, through 
the Centers for Disease Control and Prevention (CDC), had made 
substantial gains in addressing HHS' role in preparing for response to 
terrorism. Since September 11, this progress has been dramatically 
accelerated, and HHS has been in constant communication with its 
component agencies, as well as other federal, state, and local 
government components, in order to ensure our preparedness to protect 
the Nation's health in the event of future attacks. To support this 
process, President Bush has requested an additional $1.5 billion to 
strengthen our ability to respond to bioterrorism.
    Within HHS, the component agencies are each moving ahead with 
programs to further support our efforts. Allow me to describe some of 
these programs:
                      state and local preparedness
    Over the last 3 years, CDC has awarded grants to 50 states, 1 
territory and 4 major metropolitan health departments to support goals 
of building infrastructure and increasing response capacity.
    The funded programs have included the Health Alert Network (HAN), 
the Laboratory Response Network (LRN), and the Epidemic Information 
Exchange System (Epi-X).
    The Health Alert Network (HAN) is a nationwide, integrated, 
electronic communications system for public health professionals to 
share health advisories, distance learning, laboratory findings and 
other information relevant to disease outbreaks. HAN provides high-
speed Internet connections and tailored content to local health 
officials and other essential personnel.
    The Laboratory Response Network (LRN) is a partnership among the 
Association of Public Health Laboratories (APHL), CDC, the Federal 
Bureau of Investigations (FBI), State public health laboratories, the 
Department of Defense (DOD), and the Nation's clinical laboratories. 
The LRN is designed to ensure that the highest level of containment and 
expertise in the identification of rare and lethal biological agents is 
available in an emergency event. The LRN also includes the Rapid 
Response and Advanced Technology Laboratory at CDC, which has the sole 
responsibility of providing rapid and accurate triage and subsequent 
analysis of biological agents suspected of being terrorist weapons.
    A final example is the Epidemic Information Exchange System (Epi-
X): a secure, Web-based communications network that will strengthen 
bioterrorism preparedness efforts by facilitating the sharing of 
preliminary information about disease outbreaks and other health events 
among officials across jurisdictions and provide experience in the use 
of a secure communications system.
    The Office of Emergency Preparedness (OEP) has also been providing 
assistance at the State and local level, by developing local 
Metropolitan Medical Response Systems (MMRS). Through contractual 
relationships, the MMRS uses existing emergency response systems, 
emergency management, medical and mental health providers, public 
health departments, law enforcement, fire departments, EMS and the 
National Guard, to provide an integrated, unified response to a mass 
casualty event. As of September 30, 2001, OEP has contracted with 97 
municipalities to develop MMRSs. During FY 2002, we intend to invest in 
25 additional cities (for a total of 122) for bioterrorism-related 
planning through the MMRS and to help them improve their medical 
response capabilities.
    OEP also coordinates the National Disaster Medical System (NDMS), a 
group of more than 7,000 volunteer health and support professionals who 
can be deployed anywhere in the country to assist communities in which 
local response systems are overwhelmed or incapacitated. Organized into 
44 Disaster Medical Assistance Teams (DMATs), these volunteers would 
provide on-site medical triage, patient care and transportation to 
medical facilities. Four National Medical Response Teams (NMRTs), which 
travel with their own caches of pharmaceuticals, have capabilities to 
detect illness-causing agents, decontaminate victims, provide medical 
care and remove victims from the scene. Three of the four NMRTs can be 
mobilized and deployed anywhere in the Nation; the fourth is 
permanently stationed in the Washington, DC, area. The NDMS also 
includes Disaster Mortuary Operations Response Teams that handle the 
disposition of the remains of victims of major disasters, as well as 
provide for victim identification and assistance to their families.
    The Administration has requested $300 million in Emergency Response 
Funds (ERF) for State and local preparedness activities, including $40 
million for communications systems such as the Health Alert Network and 
Epi-X, $35 million to improve State and local laboratory capacity and 
CDC's internal laboratory capacity, $50 million to upgrade MMRS' 
capabilities, and $20 million for the National Disaster Medical System 
and the Disaster Medical Assistance Teams.
                   national pharmaceutical stockpile
    CDC has also established and manages the National Pharmaceutical 
Stockpile (NPS), which provides us with the ability to rapidly respond 
to a domestic biological or chemical terrorist event with antibiotics, 
antidotes, vaccines and medical materiel to help save lives and prevent 
further spread of disease resulting from the terrorist threat agent. 
The NPS Program provides an initial, broad-based response within 12 
hours of the Federal authorization to deploy, followed by a prompt and 
more targeted response as dictated by the specific nature of the 
biological or chemical agent that is used. The first emergency 
deployment of the NPS occurred in response to the tragedy at the World 
Trade Center, and was soon followed up by deployments related to the 
anthrax attacks.
    HHS has recently awarded a $428 million contract to Acambis, Inc., 
to produce 155 million doses of smallpox vaccine by the end of 2002. 
These doses, added to the current quantity in the National 
Pharmaceutical Stockpile, are enough to treat every American in the 
event of a smallpox bio-attack.
    The additional smallpox vaccine doses will also, we hope, serve the 
function of acting as a deterrent to those who might launch such an 
attack against our Nation. We are not only increasing our stockpile for 
smallpox, however. The current stockpile consists of 8 Push Packs, each 
containing antibiotics and other essential medical supplies, and each 
transportable within 12 hours to any area of the country requiring 
assistance. These Push Packs are complemented by large quantities of 
additional pharmaceuticals stored at manufacturers' warehouses, a 
system called Vendor Managed Inventory (VMI).
    Between them, the Push Packs and the VMI have enough drugs 
currently to treat 2 million persons to prevent inhalation anthrax 
following exposure to the anthrax spores. The Secretary has now 
directed that this quantity be increased during fiscal year 2002, so 
that 12 million persons can be treated for anthrax. With those and 
other additional resources, we will also add four more Push Packs to 
the current eight already located across the country, making more 
emergency supplies available and augmenting our existing supplies of 
400 tons by another 200 tons. The administration request includes $644 
million to expand the pharmaceutical stockpile.
                     food safety and drug therapies
    Over the last few years, FDA has worked with food safety agencies 
at federal, State and local levels to strengthen the Nation's food 
safety system across the entire distribution chain--from the farm to 
the table. The main results of this cooperation--more effective 
prevention programs, new surveillance systems, and faster foodborne 
illness outbreak response capabilities--enable the agency to protect 
the safety of our food supply against natural and accidental threats.
    Part of FDA's ability to protect the food supply is enhanced by its 
strong partnership with the U.S. Department of Agriculture (USDA) and 
the surveillance infrastructure that has been built between the two 
Departments. USDA conducts surveillance of the food supply, and HHS's 
Centers for Disease Control and Prevention, in partnership with State 
and local health departments, conducts surveillance for foodborne 
illnesses. Cooperative efforts between HHS and USDA form the foundation 
for protecting our Nation's food supply and will ensure the American 
public can continue to have complete confidence in their food supply 
now and well into the future.
    Coming FDA funding initiatives include a request for $61 million to 
enhance the frequency and quality of imported food inspections and 
modernize the import data system to enable us to detect tainted food. 
This funding will also provide for 410 new FDA inspectors to help 
ensure that our food is better protected.
    FDA is also requesting additional resources to assist with the 
development and licensure of vaccines, therapeutics and blood products 
to counter bioterrorism. In addition, the agency is developing 
regulations to identify the information needed to evaluate 
bioterrorism-related therapies when the traditional efficacy studies in 
humans are not feasible and cannot be ethically conducted under FDA's 
regulations for adequate and well-controlled studies in humans.
                                research
    The NIH bioterrorism research program, spearheaded by the National 
Institute of Allergy and Infectious Diseases, includes both short- and 
long-term research targeted at the design, development, evaluation and 
approval of diagnostics, therapies and vaccines needed to control 
infections caused by microbes with potential for use as biological 
weapons. Specifically, this includes the development of:
    <bullet> New treatments for complications of the smallpox 
(vaccinia) virus;
    <bullet> Improved vaccines and treatments for anthrax;
    <bullet> Trials to determine if the current Dryvax smallpox vaccine 
can be diluted to ``stretch'' the current supply until a new vaccine is 
produced;
    <bullet> Research into novel drugs, including cidofovir, to treat 
orthopox infections (including smallpox and vaccinia), as well as other 
viral infections;
    <bullet> Improved research infrastructure, including the purchase 
of essential biosafety level containment equipment to facilitate 
studies on strains of bacterial pathogens of high virulence;
    <bullet> Research to completely sequence the genome for Bacillus 
anthracis, the causative agent for anthrax disease, as well as other 
bacterial pathogens with potential for use as bioterrorism agents; and
    <bullet> Collaborative research with USAMRIID to create rapid 
diagnostic assays for diagnosis of orthopox infections, particularly 
smallpox.
                               conclusion
    In conclusion, the Department of Health and Human Services has 
been, and continues to be, committed at every level to ensuring the 
health and medical care of our citizens. We have made substantial 
progress to date in enhancing the Nation's capability to respond to a 
bioterrorist event, and these preparations ensured a strong response 
during recent events.
    Mr. Chairman, that concludes my prepared remarks. I would be 
pleased to answer any questions you or members of the committee may 
have.

    Chairman Nussle. Next is the director of the Office of 
Security Affairs for the Department of Energy, and am I 
pronouncing your name correctly, Joseph Mahaley?
    Mr. Mahaley. It is Mahaley, Mr. Chairman.
    Chairman Nussle. Mahaley. Welcome and pleased to receive 
your testimony.

                  STATEMENT OF JOSEPH MAHALEY

    Mr. Mahaley. Thank you, sir. Mr. Chairman and members of 
the committee, I want to thank you for the opportunity to 
appear before your committee today to speak with you about the 
Department of Energy and its response to the threat of 
terrorism since September 11. I am the DOE director of 
security. I report directly to the Office of the Secretary, and 
I am responsible for the development of department-wide 
policies that govern the protection of national security assets 
entrusted to our charge.
    In addition to this policy development responsibility, my 
office is also charged with the conduct of security operations 
at DOE facilities in the Washington, DC, metropolitan area. The 
world, as we know it, changed on September 11. After the 
attacks in New York and on the Pentagon, with the threat of 
still a fourth plane headed in to Washington, DOE immediately 
went to Security Condition-2, what we call SECON 2, our highest 
security level absent an imminent threat to a specific DOE 
facility.
    We shut down all shipments involving nuclear materials 
throughout our nationwide complex. We also put our national 
nuclear emergency response assets on a heightened level of 
alert. I want to point out to the committee and to the 
committee members that General John McBroom, our Director of 
Emergency Management, is here today and is available to discuss 
DOE emergency response assets.
    While we have since stepped down from our SECON 2, we 
remain on heightened security status, SECON 3, throughout the 
complex. For the information of all of the members, SECON 3 is 
our highest security level that can be maintained indefinitely. 
The DOE SECON system has served the Department well, and that 
its purpose is to establish standardized protective measures 
for a wide range of threats and to help disseminate 
appropriate, timely and standardized information for the 
coordination and support of DOE crisis or contingency 
activities.
    In DOE, the highest level of protection is associated with 
protection of special nuclear material, or what we call SNM. 
SNM in the Department ranges from complete nuclear weapons to 
the raw materials used to create the nuclear weapon. DOE refers 
to the protection program for this material as nuclear 
safeguards and security. The DOE nuclear safeguards and 
security program is focused on the protection of the most 
critical nuclear assets and classified information and is 
geared toward the prevention of theft or unauthorized use of 
nuclear weapons and the prevention of acts of radiological 
sabotage.
    The worst-case scenario that we protect is an aggressive 
terrorist adversary. Our security forces are trained and 
performance tested against this terrorist scenario. Over 
4,000--and I will testify to this, very dedicated security 
police officers, including approximately 3,500 armed officers, 
are involved in our protection efforts across our complex. 
Additionally, of those officers, more than 550 are 
counterterrorism-trained personnel, deployed at 11 separate 
locations as part of our special response teams. That is our 
SWAT team equivalent. DOE also provides training and equipment 
to enable first responders to deal with a chemical or 
biological attack.
    My office also manages a Safeguards and Security Technology 
Development effort. Its four-key program elements include 
nuclear material, control and accounting, physical security, 
information protection and counterterrorism. The Department is 
also fully involved and committed as a cochair and funding 
provided to the Technical Support Working Group, the 
inneragency counterterrorism research and development team, led 
by the State Department's Ambassador-at-large for 
counterterrorism.
    In addition to DOE's counterterrorism development projects, 
a key function of my technology development program is 
providing a source of access--translate that to security 
clearances--and leveraging for the counterterrorism community 
to utilize the resources of our national laboratories.
    Events of September 11 dramatically changed our Nation's 
threat environment, and as a result, has necessitated an 
examination of DOE's ability to respond to this new 
environment. We are working in conjunction with the Department 
of Defense at this time to develop a combined joint threat 
policy that will serve as a foundation for the protection 
strategy to be deployed at all Department of Energy and 
Department of Defense nuclear facilities. And I am talking 
about domestic facilities, sir.
    Prior to September 11, the Department has just completed a 
review of security policies and procedures. Some very useful 
recommendations emerged from this review that are currently 
being implemented. We will be looking more closely than ever at 
innovative approaches to our protection strategy. This will 
involve better use of technology, more and better training of 
our security employees and more emphasis on security education 
and the awareness among all of our employees.
    In our continuing battle against the terrorist threat, we 
are working with the Congress and other Federal agencies, 
including the FBI, the Department of Defense, Department of 
Justice and the Nuclear Regulatory Commission, to enhance our 
security posture. We continue to work with other agencies as 
well. For example, we worked with the U.S. Postal Service and 
the Department of Health and Human Services to help them deal 
with the challenge of anthrax-tainted mail.
    We are also supporting the newly established Office of 
Homeland Security in its very critical role of coordinating the 
protection and emergency response assets across the Federal 
Government.
    As the lead agency for coordinating Federal activities 
within the energy infrastructure, we are working closely with 
emergency industry representatives from oil, gas and electric 
power industries, to share information and help them assess 
their protection posture. We continue to work with State and 
local officials to address areas of concern that they might 
have and have provided technical expertise in the form of 
security assessments and recommendations to several States.
    We have learned some valuable lessons since September 11, 
and particularly with respect to working in partnership with 
industry. First, cooperation and coordination with industry was 
excellent, primarily because of the crisis of the moment. We 
need more noncrisis dialogue with industry. We also need clear 
and dedicated lines of communication. We have made substantial 
progress in this area in the past few months.
    Second, industry has demonstrated a willingness to share 
some information. They followed our lead in many respects and 
used our security conditions, our SECONS, as a guide. In 
general, however, industry continues to express concern about 
sharing security-related information with the Federal 
Government for fear it might be made public through a Freedom 
of Information Act request.
    Third, the oil and gas industry recently established their 
Information Sharing and Analysis Center, what we call an ISAC. 
This is a laudable effort, but needs to mature as quickly as 
possible to provide more timely dissemination and analysis of 
information for this important energy industry segment.
    Fourth, we need to devise a workable way of sharing 
intelligence threat data with industry; addressing this issue 
is a DOE priority. Finally, we need standardized industry 
security levels and criteria, so that when we go to a 
heightened security level, we will all know what that means. 
Industry has taken the initiative and is developing 
standardized security measures much along the lines of our 
security conditions.
    We have been busy and will continue to be so for some time 
to come. We do not ever expect things to return to the pre-
September 11 normal, because normal is changed forever. Within 
DOE, there is a new paradigm underscored most recently by 
Secretary Abraham when he told senior DOE leaders that he 
expects every manager to understand that they should instill a 
respect for and observe the highest standards of security.
    We cannot control or alter the threats to the security 
interests entrusted to our care. What can be controlled is our 
ability to plan and respond to threats should they ever 
materialize. September 11 has fundamentally altered the 
Department's security perspective and posture. This is a 
significant challenge, but one that we are prepared to meet.
    Mr. Chairman, that concludes my remarks.
    Chairman Nussle. Thank you.
    [The prepared statement of Joseph Mahaley follows:]

  Prepared Statement of Joseph Mahaley, Director, Office of Security 
                  Affairs for the Department of Energy

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to speak with you about the Department of Energy and 
its response to the threat of terrorism since September 11. I am Joseph 
Mahaley, Director of DOE's Office of Security. I report directly to the 
Office of the Secretary, and am responsible for the development of 
department-wide policies governing the protection of national security 
assets under our charge. In addition to this policy development 
responsibility, my office is also charged with the conduct of security 
operations at DOE facilities in the Washington, DC, metropolitan area.
    The world as we know it changed on September 11. After the attacks 
in New York and on the Pentagon, and with the threat of still a fourth 
plane headed east, DOE immediately went to Security Condition-2 (SECON 
2), our highest security level absent an imminent threat to a specified 
Departmental target. We shut down our shipments involving nuclear 
materials throughout the complex. General John McBroom is here today 
and is available to discuss the DOE response assets. While we have 
since stepped down from SECON 2, we remain on heightened security 
status, SECON 3, throughout the DOE complex. SECON 3 is our highest 
security level that can be maintained indefinitely. The DOE SECON 
system has served the Department well in that its purpose is to 
establish standardized protective measures for a wide range of threats, 
and to help disseminate appropriate, timely, and standardized 
information for the coordination and support of DOE crisis or 
contingency activities.
    The highest level of protection in the DOE is associated with the 
protection of special nuclear material or SNM. The SNM in the 
Department ranges from complete nuclear weapons to the raw materials 
used to create the nuclear weapon. DOE refers to the protection program 
for this material as Nuclear Safeguards and Security. The DOE Nuclear 
Safeguards and Security Program is focused on the protection of the 
most critical nuclear assets and classified information, and is geared 
toward the prevention of the theft or unauthorized use of nuclear 
weapons and the prevention of acts of radiological sabotage. The worst 
case scenario that we protect against is an aggressive terrorist 
adversary. Our security forces are trained and performance tested 
against the terrorist scenario. Over 4,000 dedicated security personnel 
including approximately 3,500 armed officers are involved in our 
protection efforts. Additionally, more than 550 counterterrorism 
trained personnel at 11 separate locations are part of our Special 
Response Teams, our ``SWAT'' team equivalents. DOE also provides 
training and equipment to enable first responders to deal with a 
chemical or biological attack.
    My office also manages a safeguards and security Technology 
Development effort. Its four key program elements include nuclear 
material control and accounting, physical security, information 
protection and counterterrorism. The Department is also fully involved 
and committed as a co-chair and funding provider to the Technical 
Support Working Group, the interagency counterterrorism research and 
development team, led by the State Department's Ambassador-at-Large for 
Counterterrorism. In addition to DOE's counterterrorism development 
projects, a key function of our Technology Development Program is 
providing a source of access and leveraging for the counterterrorism 
community to the resources of the DOE National Laboratories.
    The events of September 11 dramatically changed our Nation's threat 
environment, and as a result, has necessitated an examination of DOE's 
ability to respond to this new environment. To this end, we are working 
in conjunction with the Department of Defense to develop a combined 
Joint Threat Policy that will serve as the foundation of the protection 
strategy to be employed at all DOE and DOD nuclear facilities.
    Prior to September 11, the Department had just completed a review 
of security policies and procedures. Some very useful recommendations 
emerged from this review that are currently being implemented. We will 
be looking more closely than ever at innovative approaches to our 
protection strategy. This will involve better use of technology, more 
and better training of our security employees, and more emphasis on 
security education and awareness among all employees.
    In our continuing battle against the terrorist threat, we are 
working with Congress, the and other Federal agencies to include the 
FBI, DoD, Justice, and the NRC to enhance our security posture. We 
continue to work with other agencies as well. For example, we worked 
with the U.S. Postal Service and the Department of Health and Human 
Services to help them deal with the challenge of Anthrax-tainted mail. 
We are also supporting the newly established Office of Homeland 
Security in its critical role of coordinating the protection and 
emergency response assets across the Federal Government.
    As the lead agency for coordinating Federal activities within the 
energy infrastructure, we are working closely with energy industry reps 
from oil, gas, and electric power industries to share information and 
help them assess their protection posture. We continue to work with 
State and local officials to address areas of concern that they might 
have and have provided technical expertise in the form of security 
assessments and recommendations to several states.
    We have learned some valuable lessons since September 11, 
particularly with respect to working in partnership with industry.
    First, cooperation and coordination with industry was excellent, 
primarily because of the crisis of the moment. However, we need more 
non-crisis dialogue. We also need clear and dedicated lines of 
communication. We have made substantial progress in this area in the 
past few months.
    Second, industry demonstrated willingness to share some 
information. They followed our lead in many respects and used our 
SECONs as a guide. In general, however, industry continues to express 
concern about sharing security-related information with the Federal 
Government for fear it might be made public through a Freedom of 
Information request.
    Third, the oil and gas industry recently established their 
Information Sharing and Analysis Center (ISAC). This needs to mature as 
quickly as possible to provide more timely dissemination and analysis 
of information for this important energy industry segment.
    Fourth, we need to devise a workable way of sharing intelligence/
threat data with industry. Addressing this issue is a DOE priority.
    Finally, we need standardized industry security levels and criteria 
so that when we go to a heightened security level, we will all know 
what that means. Industry has taken the initiative and is developing 
standardized security measures much along the lines of the DOE SECONs.
    We have been busy, and will continue to be so for some time to 
come. We do not ever expect things to return to pre-September 11 
``normal,'' because ``normal'' has now changed forever. Within DOE, 
there is a new paradigm, underscored most recently by Secretary Abraham 
when he told senior DOE leadership that he expects every manager to 
understand that they should instill a respect for and observe the 
highest standards of security.
    We cannot control or alter the threats to the security interests 
entrusted to our care. What can be controlled, however, is our ability 
to plan and respond to threats, should they ever materialize. September 
11 has fundamentally altered the Department's security perspective and 
posture. This is a significant challenge, but one that we are prepared 
to meet.

    Chairman Nussle. Next is the principal Deputy Administrator 
for the Defense Nuclear Nonproliferation from the Department of 
Energy, Kenneth Baker. Welcome, Director, and we are pleased to 
receive your testimony.

                   STATEMENT OF KENNETH BAKER

    Mr. Baker. Mr. Chairman, and members of the committee, 
thank you for inviting me here today. I would like to make a 
short statement with your permission and submit a longer one 
for the record.
    Chairman Nussle. Without objection.
    Mr. Baker. This is an important opportunity to describe the 
nonproliferation work that is administered by the Department of 
Energy's National Nuclear Security Administration, or NNSA. I 
will discuss programs that reduce threats to our American 
citizens and are of great importance to this committee. I will 
also review areas where we are accelerating programs after the 
aftermath of the September 11 attacks. There is both a supply-
and-demand side aspect to the proliferation threat. Over the 
past decade, both have become worse. There are now any numbers 
of actors of concern, so-called rogue states, as well as 
terrorist organizations, seeking to procure weapons of mass 
destruction capabilities. The international community sees a 
crisis in the fact that accelerated measures are needed to 
improve the physical protection of nuclear materials worldwide 
as well as improve control and accounting of nuclear material 
and prevent illegal trafficking and handling of nuclear 
materials. These rogue actors view the crisis as an 
opportunity.
    Enormous strides in securing this material have been made 
in Russia and elsewhere, but the fact remains that the threat 
of only a few kilograms of highly enriched uranium and 
plutonium, deadly ingredients needed to fashion a nuclear 
device, would be enough for a weapon. The prospect that weapons 
usable materials could be stolen or sold to terrorists and 
hostile states and used against American citizens is a clear 
and real threat that cannot be underestimated.
    The Department of Energy's National Nuclear Security 
Administration is a key element in the U.S. response to today's 
threats. Within the NNSA, the Office of Defense Nuclear Non-
Proliferation, from now on called DNN, is responsible for the 
nuclear nonproliferation mission. DNN programs help the United 
States to detect the proliferation of weapons of mass 
destruction worldwide, prevent the spread of WMD materials, 
technology and expertise, and reverse the proliferation of 
nuclear weapons capabilities.
    At the heart of the NNSA, efforts to detect proliferation 
threats worldwide are our technology research and development 
programs. NNSA develops innovative solutions to detect and 
deter nuclear proliferation, smuggling, terrorism worldwide and 
to detect and respond to chemical and biological attacks in the 
United States. Indeed, our chemical and biological R&D is 
leading to major improvements in how the United States prepares 
for and responds to a chemical or biological attack against our 
civilian population. Just last night we ran a chemical 
detection test in the Washington Metro at the Smithsonian 
Station at 3 o'clock in the morning. Our efforts encompass 
anthrax strain analysis, establishing biological detection 
capability at the Salt Lake City Olympics, decontamination and 
other critical missions.
    NNSA is clearly well-poised to continue to make a 
significant contribution to our national efforts to address 
today's and tomorrow's threats. We do long-term, needs-driven 
R&D. Without long-term R&D today, the threat will be much worse 
tomorrow.
    The material protection, control and accounting program, is 
our primary vehicle for addressing threats to the United States 
national security poised by possible diversion of unsecured 
Russian weapons and materials. Through this program, NNSA has 
helped Russia to improve security at 95 sites; completed rapid 
security upgrades for thousands of Russian navy warheads, and 
improved security for 220 metric tons of highly enriched 
uranium and plutonium in Russia and other independent states, 
have enabled enough material to make about 20,000 nuclear 
devices.
    DNN is training Russian experts to take responsibility for 
long-term security at sensitive sites, consolidating Russian 
materials into fewer buildings at fewer sites and converting 
tons of materials to forms that are less attractive to 
terrorists. The United States is working with Russia to improve 
export control from the enforcement level with Russian customs, 
to the industrial level with internal compliance training, and 
at the regulatory and legal level by working with relevant 
Russian ministries.
    The United States is working to reduce the stockpiles of 
dangerous materials in Russia. Last year, Russia and the United 
States agreed to dispose of 68 metric tons of surplus weapons-
grade plutonium, 34 metric tons in each country. The 
administration is currently examining alternatives to reduce 
the cost of this program and make it sustainable. A final 
decision on this program is expected within 2 months. Under the 
HEU purchase agreement, the United States has removed more than 
141 metric tons of highly enriched uranium from Russia's 
military programs, enough material for more than 5,500 nuclear 
devices. 500 metric tons will eventually be downblended and 
used for civilian reactors in the United States.
    The United States is working with Russia to improve its own 
capability to implement a strongly enforced export control 
program, as well as the ability to detect and interdict nuclear 
materials along its borders.
    The United States is working with Russia to transform the 
nuclear infrastructure by developing civilian employment 
opportunities for displaced nuclear scientists and engineers. 
This is pursued mainly through DNN's Russian transition 
assistance program, which encompassed the Initiative for 
Proliferation Prevention, called IPP, and the Nuclear Cities 
Initiative called NCI.
    IPP helps to commercialize technology for the benefit of 
U.S. industry and simultaneously provides gainful employment 
for former Russian weapons scientists and technicians at more 
than 160 institutes in the former Soviet Union. While IPP is 
only a $24.5 million program, U.S. dollars invested in projects 
during the past year are required to be matched by commercial 
investment on these projects. This year U.S. companies have 
already stepped up and put in $50 million for successful 
completion of five commercialization projects; 20 other IPP 
projects are on the verge of commercialization in mid to late 
2002. On the horizon are a robotic system to support 
humanitarian demining operations, an advanced prosthetic device 
that will significantly improve the quality of life for land 
mine survivors and other new amputees. In conjunction with 
major Russian software company, IPP will help direct up to 500 
Russian scientists and engineers toward commercial 
opportunities in the information technology area.
    The Nuclear Cities Initiative removes functions and 
equipment from Russia's nuclear weapons complex and reduces its 
physical footprint, while creating sustainable and alternative 
nonweapons work to support the irreversible, transparent 
downsizing of the Russian nuclear complex. NCI is putting 
greater emphasis on commercialization by facilitating the 
production of a kidney dialysis equipment through a joint 
venture with a U.S. corporation that will employ up to 1,000 
Russian scientists.
    At the Avanguard nuclear weapons assembly plant, located in 
the city of Sarov, Russia, a number of other commercial 
projects are underway. In the aftermath of the September 11 
attack, the NNSA is accelerating many ongoing efforts. A 
recently signed access memorandum with the Russians has given 
us access to sensitive sites in Russia. Secretary Abraham and 
Russian Minister of Atomic Energy Rumyantsev agreed just last 
week to accelerate and expand U.S. Russian efforts to 
strengthen the protection of nuclear material.
    An MPC&A team just this week was granted unprecedented 
access to a sensitive location in Russia, becoming the first 
foreign delegation to ever step foot in these buildings. NNSA 
was able to confirm the presence of highly enriched uranium at 
this location and is now working on arrangements for follow-on 
visits. Today we have 12 teams in Russia working to better 
secure these materials.
    We are accelerating cooperation with the Ministry of Atomic 
Energy on protective force training and equipment and working 
with the Russian navy to complete security upgrades for 
approximately 4,000 nuclear weapons. NNSA has purchased over 
700 sets of winter protective gear so that guards will be able 
to continue their duties year round. The United States and 
Russia began negotiations on a material consolidation and 
conversion program that will consolidate weapons-grade 
plutonium in fewer locations. This will strengthen control over 
the material, make it more secure and reduce its vulnerability 
to sabotage. NNSA is expanding the second line of defense 
program, which is working with Russian Customs to help improve 
security checkpoints, at borders, airports and seaports. We 
hope to increase, by the end of the year, the number of second 
line of defense sites from four to at least 12. I will 
personally be in Russia next week to ensure that this 
acceleration program is working.
    The NNSA is working to speed up the pace of a program that 
will take back spent fuel from Russian-supplied research 
reactors in approximately 16 countries. Many are located in 
sensitive regions. NNSA officials recently met with their 
Russian counterparts to discuss and implement this program.
    Mr. Chairman, there is no way we can underestimate the 
importance of this work in turning around the proliferation 
threat. The NNSA is committed to this goal, and we will 
continue to work tirelessly to achieve it. This work requires 
our NNSA team to experience significant family separation, 
often living in substandard buildings, with inadequate heat and 
hot water and working 14 to 15 hours a day. But given the 
threat facing us, American citizens deserve nothing less.
    Ask yourself one question. What if the September 11 attack 
involved nuclear devices? Thank God it did not, but we must be 
prepared for future situations. We cannot assume the next 
attack will mirror the first. I look forward to taking your 
questions.
    Chairman Nussle. Thank you.
    [The prepared statement of Kenneth Baker follows:]

 Prepared Statement of Kenneth Baker, Principal Deputy Administrator, 
         Defense Nuclear Nonproliferation, Department of Energy

                              introduction
    Mr. Chairman, members of the committee, I thank you for having me 
here today. This hearing is an important opportunity to describe a 
number of key nonproliferation programs that are administered by the 
National Nuclear Security Administration, or NNSA.
    This is a timely hearing. More than any time in the past, much 
greater attention is now paid to the ``proliferation threat.'' It could 
almost be said that since the Cold War, we've traded one form of threat 
for another--and today's threat is much less predictable and more 
difficult to plan against. So I'd like to talk about what the threat 
is; how the National Nuclear Security Administration is responding to 
it; and some programs that I know are of interest to this committee. I 
will also discuss how NNSA is accelerating some of its efforts, in the 
aftermath of the September 11 attacks.
                        the proliferation threat
    There are now any number of actors--so called ``rogue'' states as 
well as terrorist organizations--seeking to procure weapons of mass 
destruction capabilities. The international community sees a crisis in 
the fact that intensified and accelerated measures are needed by all 
states to improve the physical protection of nuclear materials 
worldwide, to improve control and accounting over this material, and to 
prevent illegal trafficking and handling of nuclear and radioactive 
materials. But these rogue actors view this crisis as an opportunity. A 
recent report from the International Atomic Energy Agency (IAEA) 
estimates that in recent years, there have been some 175 cases of 
possible nuclear trafficking in sensitive nuclear materials.
    Enormous strides in securing this material have been made in Russia 
and elsewhere. But the fact remains that the theft of only a few 
kilograms of High-Enriched Uranium (HEU) or Plutonium (Pu), the deadly 
ingredients needed to fashion a nuclear device, would be enough for a 
weapon. The threat that weapon-usable material could be stolen or sold 
to terrorists or hostile nation states and used against American 
citizens is a clear and real threat that cannot be underestimated. Only 
a few kilograms of High-Enriched Uranium (HEU) or Plutonium (Pu), the 
deadly ingredients needed to fashion a nuclear device, would be enough 
to serve as a basis for a weapon.
    Almost a year ago, in its January, 2001 report, the bipartisan 
Baker-Cutler task force warned that ``weapons of mass destruction or 
weapons-usable material in Russia could be stolen and sold to 
terrorists or hostile nation states, and used against American citizens 
at home. This threat is a clear and present danger to the international 
community as well as to American lives and liberty.''
    The events of September 11 have brought home the magnitude of the 
proliferation threat, and have led me to conclude that the threat has 
become a little more clear, a little more present, and very much more 
dangerous and real.
                           the nnsa response
    The Department of Energy's National Nuclear Security Administration 
(NNSA) is a key element in the U.S. response to today's threats. Within 
the United States Government, only the NNSA has the overwhelming 
corporate expertise in working with and understanding nuclear weapons 
and nuclear power; and only the NNSA is situated fully to exploit the 
world-class expertise of the U.S. national laboratories--a key asset in 
our arsenal.
    Within NNSA, the Office of Defense Nuclear Nonproliferation (DNN) 
is directly responsible for the nuclear nonproliferation mission. 
Through DNN, NNSA supports U.S. efforts to help the United States to 
detect the proliferation of weapons of mass destruction worldwide; 
prevent the spread of WMD material, technology, and expertise; and 
reverse the proliferation of nuclear weapons capabilities.
                  technology research and development
    At the heart of our efforts to detect weapons of mass destruction 
proliferation are NNSA research and development programs. Harnessing 
the technical excellence of the National Laboratories, NNSA develops 
innovative solutions to detect and deter nuclear proliferation, 
smuggling, and terrorism worldwide, and to detect and respond to 
chemical and biological attacks in the United States.
    The R&D program responds to the needs of the nonproliferation 
community, in advance of specific formal requirements. The program 
pushes the state-of-the-art in technology to detect and analyze 
proliferation activities. End-users rely on us to conduct the long-term 
R&D to provide innovative solutions for future systems to address their 
missions, while their resources focus on short-term requirements.
    Our Chemical and Biological National Security R&D will lead to 
major improvements in how the U.S. prepares for and responds to 
chemical and biological attacks against civilian populations. Key 
elements of the cutting-edge technology being brought to bear against 
the bio-terrorism threat is the product of NNSA's Nonproliferation and 
Verification R&D Program:
    <bullet> NNSA's prototype Biological Aerosol Sentry and Information 
System (BASIS) will be deployed to demonstrate biological detection 
capability at the Salt Lake City Olympics.
    <bullet> Many techniques that NNSA has helped to fund and develop 
are currently being applied in anthrax strain analysis.
    <bullet> Decontamination foam developed by the R&D program at 
Sandia National Laboratories has been transitioned to commercial 
vendors.
    <bullet> A chemical detection system developed by the Sandia and 
Argonne National Laboratories was part of a recent Washington Metro 
emergency response exercise.
    NNSA is clearly well poised to continue to make significant 
contributions to our national efforts to address today's--and 
tomorrow's--threats.
         non-proliferation programs in the former soviet union
    The Material Protection, Control, and Accounting (MPC&A) program is 
our primary vehicle for addressing threats to United States national 
security posed by the possible diversion of undersecured Russian 
weapons and materials. In consolidating, securing, and reducing stocks 
of weapons-grade fissile material, MPC&A is a critical element in this 
Nation's ``first line of defense'' against nuclear smuggling and 
terrorism.
    In a moment I'll discuss steps we're taking to accelerate MPC&A 
programs. But I'd first like to note that this program continues to 
enjoy notable success:
    <bullet> Since 1993, the U.S. has helped Russia to improve security 
at 95 nuclear sites.
    <bullet> NNSA has completed rapid security upgrades for thousands 
of Russian Navy warheads and improved the security for 220 metric tons 
(MT) of Highly Enriched Uranium (HEU) and plutonium in Russia and other 
newly independent states--enough material for roughly 20,000 nuclear 
devices.
    <bullet> NNSA is training Russian experts to take responsibility 
for long-term security at sensitive sites, consolidating Russian 
materials into fewer buildings at fewer sites, and converting tons of 
materials to forms less attractive to terrorists. We're also finding 
ways to work with Russia to help it dispose of its own surplus 
materials.
    <bullet> MPC&A programs are but one element of our response. The 
United States is also working with Russia to improve its export control 
system, from the enforcement level with Customs, to the industry level 
with internal compliance training, and at the regulatory and legal 
level of the ministries involved.
    <bullet> The United States seeks not only to secure, but to reduce 
the stockpiles of dangerous materials throughout Russia. Last year, 
Russia and the United States agreed to dispose of 68 MT of surplus 
weapon-grade plutonium--34 MT in each country. The administration is 
currently examining alternatives to reduce the cost of this program and 
make it more sustainable. A final decision is expected within 2 months. 
Under the HEU purchase agreement, the United States has removed more 
than 141 metric tons of HEU from Russia's military programs--enough 
material for more than 5,000 nuclear devices. Under this program, 500 
MT will eventually be downblended and used for civilian reactors in the 
United States.
    <bullet> The United States is also working with Russia to improve 
its national capabilities to implement and enforce export controls, as 
well as its ability to detect and interdict nuclear materials at border 
checkpoints and borders. Some borders are thousands of miles long and 
present difficult challenges. Efforts in both areas need to be shored 
up as quickly as possible.
            enhancing irreversibility of nuclear downsizing
    The United States is working with Russia to ensure the 
irreversibility of steps taken to downsize Russia's nuclear weapons 
complex. We are helping Russia transform its closed nuclear cities by 
developing civilian employment opportunities for displaced workers. 
These objectives are pursued principally through our Russian Transition 
Assistance efforts, which encompass the Initiatives for Proliferation 
Prevention (IPP) program and the Nuclear Cities Initiative (NCI).
    IPP helps to commercialize technology for the benefit of U.S. 
industry and simultaneously provides gainful employment for former 
Russian weapons scientists and technicians at more than one hundred and 
sixty institutes in the Former Soviet Union.
    While IPP had only $24.5 million in U.S. dollars to invest in 
projects during the past fiscal year, it required its commercial 
partners at least to match its investment in each project. This helped 
IPP and its Russian partners to identify technologies offering the 
greatest commercial promise by requiring U.S. industry to commit to the 
project's technological development from the outset. This year, equity 
sources have already stepped forward to commit more than $50 million 
for the successful commercialization of five projects for the next 
fiscal year. Twenty other IPP projects are on the verge of 
commercialization for mid/late 2002.
    Through IPP, we've successfully commercialized several energy 
related technologies, including a radar intended to enhance coal and 
oil recovery. This could result in revenues exceeding $2 billion during 
the next 10 years.
    A wheelchair seat cushion that can prevent pressure ulcers 
responsible for causing tens of thousands of deaths in the U.S. every 
year has just received FDA approval. When commercialized, this project 
could save Medicare more than $3 billion in annual treatment costs for 
pressure ulcers.
    IPP is developing a robotic system to support humanitarian demining 
operations; an advanced prosthetic device that will significantly 
improve the quality of life for land mine survivors and other new 
amputees; and in conjunction with a major Russian software development 
company, will help redirect up to 500 Russian scientists and engineers 
toward commercial opportunities in the information technology sector.
    These are but a few examples; there are many others. We're proud of 
IPP's success, and we look forward to future commercialization of its 
myriad ongoing projects.
    I also want to touch on the Nuclear Cities Initiative (NCI). NCI's 
mission is to reduce the physical footprint of Russia's nuclear weapons 
complex, in part through the creation of sustainable, alternative non-
weapons work that will help to achieve that objective and emphasize 
commercialization.
    NCI's first major commercial effort facilitates the production of 
kidney dialysis equipment by a joint venture established between 
Fresenius Medical Care of Lexington, Massachusetts, and the Avangard 
nuclear weapons assembly plant, located in the closed city of Sarov, 
Russia. At Avangard, six buildings have been converted to form an open 
industrial park. Last year, the fence at Avangard was moved to carve 
out this commercial floor space, and thereby reduce the weapons portion 
of the complex. A number of other commercial projects are in process to 
make use of this industrial park, which is expected to expand to 
include even more production space in 2002.
    A little over a year ago, virtually no Westerners had ever been 
allowed to set foot in Avangard. Now they are part of a joint venture 
that will use resources, buildings and personnel that previously 
produced nuclear weapons to manufacture life-saving medical devices. 
This is truly beating swords into plowshares--almost in a literal 
sense. We hope to carry out a similar effort at an excess Russian 
nuclear weapons production facility in Zarechnyy, formerly known as 
Penza-19.
                        multilateral approaches
    Complementing our bilateral cooperation with Russia and other 
former Soviet states is NNSA's support of the International Atomic 
Energy Agency. Speaking to the IAEA's Board of Governors last week, 
Secretary Abraham observed that, ``The work the Agency does to deny 
nuclear material and radioactive sources to terrorists and state 
sponsors of terrorism is an integral part of our effort to stem the 
proliferation of weapons of mass destruction.'' NNSA is working with 
other U.S. agencies to increase our support of the IAEA's programs in 
physical protection, illicit trafficking, and radiation source 
management. NNSA expertise and technology helps the IAEA strengthen its 
safeguards system, giving the Agency an enhanced capability not only to 
detect the diversion of nuclear material from declared programs, but 
also to detect clandestine, undeclared nuclear programs.
    Last week Secretary Abraham pledged $1.2 million to match a 
contribution from the Nuclear Threat Initiative, with the aim of 
enhancing the IAEA's role in the fight against nuclear terrorism.
                             looking ahead
    While NNSA considers new avenues, it is also accelerating ongoing 
efforts.
    Taking advantage of a recently signed Access Memorandum, MPC&A is 
working with Russian officials to identify and make more secure 
additional locations in Russia where nuclear materials are located. New 
contracts are being signed for security upgrades at Tomsk and Mayak, 
two critical Russian sites. We are accelerating our cooperation with 
MinAtom on Protective Force training and equipment for these and other 
sensitive facilities, and working with the Russian Navy to complete 
security upgrades for approximately 4,000 nuclear weapons. An NNSA team 
has purchased over 700 sets of winter protective gear, so that the 
guards will be able to continue their duties during the winter.
    The United States and Russia are beginning negotiations on a 
Material Consolidation and Conversion agreement that would consolidate 
sites where weapons-grade material is located. NNSA is also expanding 
its Second Line of Defense program to increase by the end of this 
fiscal year the number of such sites operating on the Russian border 
from four to at least twelve.
    NNSA is committed to improving safety at Russian reactors that now 
operate at levels below minimum acceptable international standards for 
reactor safety. And it is vital to improve the physical security of 
nuclear power plants throughout the former Soviet Union. NNSA is also 
looking to speed up the pace of a program that would ``take back'' 
spent fuel from Russian-supplied research reactors in approximately 16 
countries, many of which are located in sensitive regions. NNSA 
officials recently met with their Russian counterparts to discuss 
implementing this program.
                               conclusion
    Mr. Chairman, thank you for the opportunity to appear today. I look 
forward to taking any questions you may have.

    Chairman Nussle. Let me alert members, there are three 
votes on the floor. It is my intention to ask questions and 
then turn to Mr. Spratt and then we will recess until after the 
three votes. So if members can proceed as they would like.
    First I would like to turn to you, Administrator Baker. The 
government has several large nonproliferation programs in our 
budget. One is the Cooperative Threat Reduction, Nunn-Lugar. It 
is controlled, obviously, by the Department of Defense, spends 
about $400 million annually. We have got a DOE nonproliferation 
program, which spends roughly the same. In addition, there are 
a number of other smaller programs at Commerce and State. This 
is not to suggest in my question that any of them are less 
important than the next, but as a general question to begin, 
shouldn't all of these programs be consolidated and be given an 
improved oversight mechanism through the administration or 
through Congress? I would ask your advice on that subject as we 
proceed.
    Mr. Baker. Working in this program 9 years, sir, and before 
that writing the ``Go To War Black Book'' for the President, 
which I did for years, the threat is much worse today than it 
was during the cold war. There is no doubt in my mind about 
this. We have a program--many programs that make sure that we 
don't have redundant work being done. We have a stucture called 
the Counterproliferation Program Review Committee--which is 
headed at the Under Secretary level at Defense, Energy and 
Intelligence the CPRC transmits a report once a year to the 
Senate Armed Services Committee--which shows what each program 
is doing and that there is no redundancy. This report is signed 
off by the Secretary of Defense and the Secretary of Energy, 
and show that there is no redundancy going on.
    Number two, we have a policy coordinating committee in the 
White House, headed by a senior person that reports right to 
Dr. Rice that also ensures that we don't have redundancy in 
these programs. In this group, this PCC group is made up of 
Defense, Energy, Intelligence, State and the Joint Chiefs of 
Staff. I do not think in 9 years in this business, though, that 
there is much redundancy in these programs.
    The lead of this program or the coordinator in this program 
needs to sit in in the National Security Council, needs to 
report to Dr. Rice--which the person does right now, and it 
works very effectively. There is one small program that may 
have a little redundancy, and that is a program the State 
Department has called ISTC, and the program that Energy has 
called IPP. These programs both work to reduce the number of 
nuclear scientists working on weapons work. The ISTC program 
puts nuclear scientists to work part-time, temporarily. The IPP 
program puts them to work permanently.
    There is a little redundancy in these programs, but I think 
the programs are working well between the agencies. There is 
coordination in the agencies. There is not redundancy, and the 
money is being well spent.
    Chairman Nussle. The General Accounting Office disagrees 
with some of your judgments on that, and it is not to suggest 
that anyone has the market on this, but this is an issue that 
obviously is going to continue to be heightened, and so as a 
result, I would ask that you work with our General Accounting 
Office to see if we can't improve some of that coordination and 
application of resources.
    Mr. Baker. Yes, sir.
    Chairman Nussle. Just as a follow-up, one of the things 
that we have heard reported upon is that it has really been the 
slowness of the Russian government to grant access to 
facilities and to enter into agreements. In other words, it has 
really not been the funding of these programs, services, it has 
been the ability to garner a trust between the United States 
and Russia since the end of the cold war. Do you believe that 
the new relationship and agreement--personal agreements that 
have been reached between the President and Mr. Putin will 
improve that to a degree? And do you believe that that will 
assist us in successful implementation of some of these 
programs?
    Mr. Baker. Mr. Chairman, I have never seen in all my times 
working with the Russians the relationship any better than it 
is right now. We have an access agreement now with the 
Russians. The work was slowing down a couple years ago. It was 
because we didn't have an access agreement. We have an access 
agreement, and we are getting in to about every sensitive site 
that we have in Russia, that we know about. The relationship 
that the Secretary of Energy has with Minister Rumyantsev is 
outstanding. He was with him last week.
    They agreed, as I said in my testimony, to open up all the 
doors, to stop any bureaucracy, to get this work done for the 
common good of the world. The relationship that the President 
has with President Putin I think is absolutely outstanding, so 
I can say that I don't think the relationship has ever been 
better, and I think now we can get things done quicker and 
better, and the only thing that could slow us down at all is 
resources.
    Chairman Nussle. Thank you. I have other questions, but I 
will stay within my time.
    Mr. Spratt.
    Mr. Spratt. Mr. Baker, let me pick up on where you were and 
look at the budget for defense nuclear nonproliferation 
programs, which fall in the domain of DOE, comparing last year 
with this year, 2001 with 2002. In 2001, if you add up R&D for 
nonproliferation arms control measures like Nuclear Cities; IPP 
Initiatives to Prevent Proliferation; MPC&A Material Production 
Control and Accounting; Fissile material Disposition; the 
Highly Enriched Uranium Purchase Agreement; and the 
International Reactor Safety Study Agreement. If you add all of 
those up, in 2001, we spent $874 million, all told. The request 
for this year, 2002, was fully $100 million less than that. 
What happened? Has the problem become less compelling that we 
would cut it by $100 million?
    Mr. Baker. Well, sir, we think our work is very important. 
I cannot judge why it was reduced; some of these programs are 
like a thermometer, you can turn them up or turn them down; you 
can work faster or slower. Regardless, we are still getting the 
work done. With this budget we will get our work done. Some of 
it will not be as be fast as maybe we could do if we had more 
money, but the work is getting done, and we are reducing the 
threat to this country.
    Mr. Spratt. Let me rest at that, because we have got to 
run. I am told we have about 3 minutes to cast a vote. We will 
be back as quickly as possible to pick up on that.
    Chairman Nussle. We will pick up where we left off. The 
committee will stand in recess and we ask the indulgences of 
our witnesses as we run and catch three votes here on the 
floor.
    [Recess.]
    Chairman Nussle. I know Mr. Spratt is on the way, and we 
will recognize him when he comes back, but in the meantime we 
will turn to Mr. Thornberry for any questions you may have.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I appreciate each of the witnesses being here today. It 
seems to me that each of you is responsible for an area of the 
government that raises some particular issues that, Mr. 
Chairman, I think we are all going to face in next year's 
budget. One of those issues is how much money can you use 
effectively.
    We hear in some of the debates going on now that there is 
plenty of money in the pipeline, don't give us any more, we 
can't use it. We have heard debates in the past, particularly 
with the nonproliferation programs, about money being wasted 
and so forth. So one issue is how much money can be used 
effectively.
    The other one is what is the proper balance of risk and 
benefit? It seems to me in this war, there is no limit to the 
number of ways we can be attacked. We could spend the whole 
budget many times over preparing, protecting against one thing 
and another, but what really makes sense? I think those are two 
challenges that each of us are going to have to look at as we 
think about the budget over the next year, but you all have to 
do so now.
    I have a couple of specific questions that I would like to 
address on those topics, but if you all have thoughts on the 
general area, I would like to hear that as well.
    Doctor, I would like to ask you specifically on this idea 
of risk benefit, how do you decide what drug to stockpile, for 
example? One of the specific questions I have is the drug 
potassium iodide. There is a lot of discussion these days about 
a radiological weapon, apparently if you take this potassium 
iodide, you can protect yourself against thyroid cancer, which 
was responsible for thousands of deaths at Chernobyl. Are we 
stockpiling this drug? Does it make sense to do so? Then I 
would like for you to express to us a little bit how you decide 
what drug makes sense to stockpile, what not.
    My second question for you, Mr. Baker, as the Chairman 
started this about whether you are limited by access to the 
Russians or whether you are limited by money. I would like for 
you to take another little part of that. Some of the criticism 
we have heard in the past is that the Russians siphon off some 
of the money for taxes, and some of it goes to the Mafia, and 
various other things. I have always been a supporter of the 
nonproliferation programs because I believe even with a lot of 
waste you are getting an enormous amount of good. I think it is 
appropriate for you to update us as to the efficiency and 
effectiveness of the money we are spending now and how that 
will proceed.
    So, Doctor, if you would start with the drug issue, and 
then Mr. Baker.
    Dr. Lillibridge. Yes, sir. Let me begin by addressing the 
issue how do we decide what to build and ultimately what drugs 
to stockpile. Our initial impression as we began to build the 
antibioterrorism program was that, as you said, the range of 
potential options were enormous. It looked to us that our 
thrust would be building a broad public health infrastructure 
honed for emergency preparedness around key issues of the tools 
to respond to bioterrorism. Those would be the things like 
surveillance, laboratory, communications, trainings, things 
that health departments need to operate and respond to these 
kinds of epidemics.
    The issue of how do you choose specifically then from that, 
what goes into a stockpile as you begin to build a national 
stockpile, and we have all seen the rhetoric and information in 
the newspapers about different things at different times that 
come on the horizon. We began to look at this as a matrix of 
risk-benefit, and as we did that, we looked at the things that 
were a combination of things known to be weaponized, things 
that were truly dangerous if released into the population that 
had potential for mass killing, things that had had some 
research and development in one of the bio-offensive programs, 
and that diseases for which--could easily be packaged had shock 
value.
    Looking at that matrix and cross-referencing it with law 
enforcement and our Intelligence Community, we came up with a 
critical agents list that we have used for 3 years with the 
response community, and this is specific to bioterrorism 
activities. That list includes things on most people's list, 
whether you read the intelligence or the New York Times or in 
preparedness circles, things like anthrax, smallpox, botulinum 
toxin, plague, et cetera. We also conducted--that was our A 
list--a second tier list, which things didn't have all those 
features of risk as the first tier, but had had some investment 
where some specific preparedness effort, whether it was 
education or an antidote, needed to be stockpiled; and the 
third was the capacity to respond to things for which we were 
unclear, emerging infectious diseases, unknown threats and that 
sort of thing.
    What this did for us, it gave us a chance to organize a 
stockpile around those kinds of threats on the bio circle. With 
the chemical and the radiation components, these were less 
directed than the emphasis on getting the biocomponents 
operational early. We do maintain some chemical antidotes, a 
small portion of our stockpile, toward nerve agents and things 
that might help with mustard and other general chemical 
exposures, and at this time the Department is debating and, in 
fact, tomorrow we will be discussing the issue of potassium 
iodide radiation burn packs and expanding the stockpile to 
include medical treatment issues for a wider range of 
activities, but that is how we basically crafted the biological 
activities. That has been a printed, open list.
    What the A list had done for us--with the highest order of 
threats--is given us experience to build infrastructure and 
response capacity to toxins, bacterial agents, and viral agents 
if you prepare for those while knocking off the things that 
were at greatest risk for the population.
    Last, I would like to answer that by saying we can't 
predict which of those things are most likely in any given day 
in the absence of intelligence communications coming in from 
the Intelligence Community, and we are networked with that 
group on a daily basis. Thank you.
    Mr. Baker. Congressman Thornberry, the question of how 
effective are these programs and is money being siphoned off, I 
want to applaud the White House, what they did initially when 
they came in to look at all our nonproliferation programs. It 
was a step that needed to be done. I think that now these 
programs are more effective because of what the White House did 
in this.
    One of the things they looked at is ineffectiveness of 
these programs, is money being siphoned off? We had the 
Intelligence Community look at this, and I can't say that every 
penny went for nonproliferation work. I can say that the 
majority of it did, and in some programs almost all of it. A 
program like materials protection control and accounting we 
have, are task-order-type contract. We have people go in to 
look at these facilities, give an estimate of what it is going 
to cost. We have the Russian contractor do the work. Then we go 
back and look. If we do not have assurances for this committee 
or any other committee, we stop work. We have access, but if we 
don't have access, we don't put a contract, and every contract 
we write now has access in that contract. So we are pretty sure 
that--we know the work is being done, and if we don't have 
access, the contract will not be let.
    Again, I think, like I said in my testimony, I have never 
seen the relationship with Russia better than it is now. I give 
thanks to the President who has started this relationship with 
President Putin, and I have seen my Secretary act in person. I 
was not with him last week, Ambassador Brooks was, but I was 
recently with the Secretary in Vienna. I saw the relationship 
he has with Minister Ramyantsev. It is an excellent 
relationship. Minister Ramyantsev is not like Minister Adamov, 
not like Minister Mikhailov; he is a different individual that 
wants to work, wants to clear all the bureaucracies, wants to 
get this done.
    There is, as I said in my testimony, a clear and present 
danger, and we are not throwing money at something that is not 
being done, in my opinion, sir.
    Chairman Nussle. Mr. Spratt.
    Mr. Spratt. Thank you very much. If we could go back to 
where we left off, and that is with the requests this year and 
the amount provided last year and the amount appropriated. Just 
looking at some of these different accounts, for example, 
Nuclear Cities went from $26 million to $6 million. Was there a 
particular reason for that? Was there a lack of faith in it or 
a backlog of money or what?
    Mr. Baker. I think on that, Congressman Spratt, there was 
some lack of faith in the NCI program. I think if any program 
has not shown what it can do yet, it is probably the NCI 
program. We know 2 years ago that we got a bad report on the 
IPP program from the GAO. That program was turned around, and 
it is one of the best programs that we have got in 
nonproliferation now. It is almost paying for itself, and 
companies want in on this than we have money for in this area.
    So I can say I think part of it was, yes, sir, it takes a 
long time to build these programs, and we have not done as well 
as I wished in that area.
    Mr. Spratt. Given your knowledge of these programs, the 
Initiative to Prevent Proliferation and the Nuclear Cities 
Initiative, do you think if you get your budget level restored 
you can spend it effectively?
    Mr. Baker. I think, sir, we can spend it effectively, yes, 
sir. I do think now we have got a better handle than we have 
ever had on these programs. We can always use more money, but I 
will carry out these programs to the best of my ability, and so 
will Ambassador Brooks, with the money that is given to us on 
nonproliferation. It is that critical.
    Mr. Spratt. Another account is the R&D account, which was 
$244 million in '01 and reduced to $206 million in the request. 
Fortunately the appropriators restored the amount. A number of 
small things that don't have high visibility such as sensors 
that are piggybacked on satellites and used to detect nuclear 
explosions that are above ground or that leak out of the 
ground, critical to our basic surveillance of the threat 
worldwide, it was actually threatened if we cut it back from 
206 to 244 million; was it not?
    Mr. Baker. Well, sir, budgets have priorities. As I said in 
my testimony, the R&D program is critical to this country. We 
are doing a needs-based program based on things that need to be 
done. If that work is not done, we will be blinded in the 
future to these type threats, and the program is critical. The 
work we are doing right now in the chemical-biological area, as 
I explained in my testimony, has been critical.
    So, again, can one use more money? The answer is yes, but 
we will carry out our mission with the budget that was given to 
us, and we will do it effectively.
    Mr. Spratt. Is this a marketing problem? A couple of years 
ago, Representative Ellen Tauscher's initiative, we had a 
science fair in the Cannon Caucus room full of the things that 
DOE has done mainly through the labs over the years, out of 
this account mainly, some other smaller accounts, but this is 
one of the prime sources for it, and there are all kinds of 
things being done there. You don't really notice them, but they 
are critically needed. Detectors, for example. If you get a 
strange container, if you think it is radioactive, you want to 
find out what kind of radioactive materials might be there, 
what kind of weapon might be in it without taking the container 
apart. The labs have been working on that for years 
anticipating the kind of problems we could be faced with, I 
hope not, but we could be, and yet marking that is difficult to 
do.
    Let me give you one personal example. You mentioned in your 
testimony, I believe, or Mr. Mahaley did, about the chemical 
detectors that were tried out in Washington Metro. I would love 
to go see the results of that. I happen to be the host in my 
congressional district of a hazardous waste landfill, the 
second largest east of the Mississippi, and it has two 
hazardous waste incinerators, and I was concerned about the 
manner in which the emissions from that incinerator were 
monitored. They were hardly monitored at all. And someone else 
got involved, and he called of all people--Charlie Townes, a 
renowned South Carolinian who won the Nobel Prize for 
discovering the laser--and Charlie Townes put us on the path of 
something, work being done at Argonne Labs, a detector that 
would be able to sample the emissions from the smokestack of a 
chemical hazardous waste incinerator and give you a realtime 
qualitative analysis. It turns out Argonne was doing, I think, 
organic compounds, and Sandia was doing inorganic compounds. 
They were both developing it, both excited about it, because 
they said software just in the algorithms for this kind of 
quantitative analysis just exploded and had all kinds of 
implications.
    I called EPA to see if they could possibly get that in 
their budget, called them in Raleigh where they have their 
research center, and I was told that the annual budget for 
things like that was $500,000 a year, and it was more than 
fully subscribed. They just flat couldn't even think about it.
    I went over to the Energy and Water Appropriations 
Committee for about 4 or 5 straight years, and each year I'd 
get $500,000 to a million dollars for Sandia and Argonne to 
develop that technology. Part of it was just marketing the idea 
and talking to the subcommittee chairmen and ranking members 
and members of the committee to convince them it was a good 
idea. I know it is arduous work, but I think, first of all, you 
have got a problem probably--you don't have to answer this 
question--down the street at OMB ,and then you have probably 
got a problem back here in Congress.
    I think nonproliferation is a much harder sell than it 
ought to be in the Congress of the United States, and I have 
got a feeling the same is true down at OMB. They see all these 
things, and DOD doesn't have a great enchantment with these 
things because they don't put ships at sea, they don't put 
forces in the field. This is not their traditional notion of 
what defense is, but it is effective when it comes to defending 
us against the real threats we are faced with. I think part of 
it is selling the idea, making people understand what is needed 
and why you have a capability to provide that.
    Mr. Baker. Congressman, number one, I want to thank you for 
the support you have given us on nonproliferation. You and 
Congressman Thornberry have really been supporters of this 
program with other people, and I want to thank you for what you 
have done.
    On the R&D program I think part of it is marketing, because 
a lot of it is SCI, special category-type briefings. Which 
given to some of the staffers up here. Some of them have 
elected not to come yet, and when we gave the briefing of what 
we are really doing in some of these areas, their eyes opened 
up wide and said, oh, my God, I didn't know you were doing it.
    Mr. Spratt. Nuclear Cities I happened to see Dr. Hacker a 
couple of years ago, and it was just a chance meeting, but we 
were together for a couple of days at a conference in Berlin, 
and he told me some of the things that don't get quantified, 
monetized, or they are unexpected, resulting from this 
particular program.
    We have learned all kinds of things about what their 
capabilities and capacities are. We have gotten to know their 
best scientists, and it has been a godsend to us, and given the 
budget, $2 trillion, surely we can afford $25 million for 
something like that. I know the cow gets skimmed. We have got 
opponents of this program here in the Congress who claim that 
the labs are the worst of all when it comes to skimming it. 
They were taking 40 percent off the top before anything went to 
Russia. But to have it properly administered, we have to do 
that.
    Let me ask you this and ask the whole panel this. If you 
have money, where could you put it to do the most good? If you 
have more money than the budget currently provides, what kind 
of programs or what kind of existing accounts would you choose 
to plus it up as the highest priority to give us the best 
return? I will start with you, Mr. Baker.
    Mr. Baker. Well, the first thing I would do is I would 
accelerate the MPC&A program. I would put more money, put more 
teams and more resources into Russia. That would mean some 
program direction money. I have got to have people to put in 
there besides resources. The programs are effective. I would 
speed up the materials consolidation program in Russia. That is 
putting the material in less sites so that we can guard them 
better.
    I have got programs in the Initiative for Proliferation 
Prevention that have not been funded, $20 million worth. I 
would put the money there so that companies can go to work 
putting more scientists to work.
    I would put some more money into the R&D program, into the 
detection area, both chemical and biological. I explained what 
we are doing in the chemical and biological area, in the R&D 
program, the Protect System which we demonstrated last night, 
the work we are doing for the Winter Olympics in Salt Lake 
City, and on what we are doing in the abstract.
    We are also doing things on forensics analysis, where these 
things come from. I would put more money there. This is a one-
of-a-kind R&D program. There is none like this in government 
where we can go with needs-based long-term R&D, and that is 
what has to be done.
    So that is where I would put the money if I had more money.
    Mr. Spratt. Let me ask you and Mr. Mahaley both, is any 
serious consideration being given to accelerating at some cost 
the acquisition of Russian HEU or the acquisition for the MOX 
fuel conversion of excess plutonium stocks? Those are big bucks 
if you are really going to do that right.
    Mr. Baker. In the White House study all the programs were 
looked at. The one program that right now is still being 
reviewed, and we will have an answer by 1 January, in a month, 
because the White House wants a decision before the next budget 
cycle, and that is plutonium disposition, whether we go with 
MOX or something else. We have a briefing put together. My 
people briefed General Gordon and Under Secretary Card just 
last night. We are over at the State Department briefing them 
today. We are going to have an interagency meeting toward the 
end of the week. The Secretary will have to buy our 
recommendation, and then we will go to the interagency and to 
the White House for a decision on MOX. Again, the decision will 
come down within 2 months on how we are going to go with this 
plutonium disposition system.
    Mr. Spratt. Mr. Mahaley.
    Mr. Mahaley. Mr. Spratt, I get together with the other 
security directors of Federal agencies, and we have been doing 
that with a lot more frequency lately. I would say that every 
one of them would agree with me that on September 11, we would 
do everything we were planning to do in the next 2 years in 
about the next 2 weeks.
    If we had extra money, I would accelerate programs we have 
on the books, but in a bigger picture, I was, in my testimony, 
talking about the design basis threat. That is a requirements 
driver that we use to size our force to defend the DOE sites 
throughout this country. I can't go into the specifics in an 
open hearing, but I can tell you one thing. What happened on 
September 11 wasn't in my design basis threat, and I am not 
unique. So our design basis threat is going to change, and it 
is a requirements driver, and that is going to require 
resources.
    The people who did what they did on September 11 went out 
to Reagan National Airport and, instead of seeing 
transportation, saw missiles, and they thought way out of the 
box, way beyond what security professionals have been thinking 
about. We got a hard lesson on September 11. We are working 
right now with the Department of Defense to change that threat 
picture, so that is going to require some additional resources. 
As far as----
    Mr. Spratt. Could I interrupt to ask a question because it 
is consistent with what you are talking about. Mr. Obey, the 
ranking Democrat on the Appropriations Committee, following 
September 11 had lots of agencies over, from NSA to DOE, and in 
closed session said, tell me what your real vulnerabilities 
are, particularly in the areas of facilities, something you 
might be worried about where something catastrophic like a 
plane crash would wreak havoc. I won't begin to go into all of 
that in open session, but he has been pushing to get $7 billion 
in homeland security appropriations just to deal with these, 
and if you ask him, he will sit you down, close the door and 
show you photograph after photograph of major facilities at the 
end of major metropolitan runways or in the proximity to them 
that will be vulnerable to another catastrophic aircraft 
collision. We are dealing with nuclear material, everything 
from nuclear materials to highly secret, sensitive data that is 
not backed up, it is on the site, all kinds of risks like that.
    Have you done a facilities inventory to see what facilities 
might have that kind of vulnerability that wasn't considered 
because you weren't thinking out of the box, so to speak, in 
the past?
    Mr. Mahaley. Yes, sir, we have. We have completed what I 
would call a short, quick look under leadership of General John 
Gordon, the Administrator of the NSA, and we have undertaken 
longer studies based on that.
    The vulnerabilities are there and are going to be 
addressed, but I will just say to you, sir, and the other 
members of the committee that I don't expect these folks to 
repeat. I think they are going to surprise us again, and what I 
want my folks to work on, in this threat area, is to think 
outside the box, think outside of our pattern that we have 
developed over the last few years, and I think I would be 
echoed by all the other security directors in the other 
government departments.
    For Energy specifically, I would prioritize additional 
funding in this way: First cybersecurity. The reason why is 
that is where we are most vulnerable. I get security incidents 
reported to me daily throughout the complex. I will tell you 
that most of the time it involves information, and most of the 
time it is connected with cybersystems. We could use additional 
resources there because if somebody is coming against one of 
our facilities or any facility, a key element is going to be 
planning, and planning is all predicated on information you can 
get about that facility.
    We have taken steps. Deputy Secretary Blake ordered last 
month a review of all Energy sites, and we pulled down 
information that we might have had out there that might have 
some operational usefulness to some people who don't wish us 
well. We had to do that, and we are continuing to do that, but 
in general I think that is one of the big problem areas that I 
have got, and every agency in government and, in, fact up here 
in this institution I am sure you have the same problem. Those 
systems are vulnerable.
    The next one is nuclear material consolidation. I know this 
is a very touchy issue, and it is surrounded by a lot of 
politics and a lot of NIMBY type of feelings in terms of not 
wanting material next to your house, but from a security 
professional standpoint, if you consolidate the material, you 
can protect it much more efficiently. It reduces risk.
    The last one is personnel. I am very, very privileged to 
lead a Federal staff of over 200 people. A couple of years ago 
my folks in the human resources came and talked to me and said, 
``Joe, in 5 years 75 percent of your people are going to be 
retired.'' There really wasn't a program following up on that 
to build a staff. So we set up a career development program, 
professional program, and we are trying to fund it out of hide. 
We are getting support from John Gordon, the NNSA, because they 
see the problem, too.
    I think that is the area I would emphasize to try to build 
a follow-on professional core of security specialists. This is 
tough work, especially in the nuclear area. There is just not 
physical security and alarm systems, you are talking about 
nuclear material, control, and accounting. That is 
sophisticated work, and you have got to build a core staff to 
be able to answer those questions correctly. That is where I 
would put my priorities, sir.
    Mr. Spratt. Dr. Lillibridge, one of the crown jewels in 
your domain is the CDC, but I have seen photographs of the 
facilities at the CDC outside and inside which are in 
shockingly poor state, and I understand that the request for 
CDC this year was increased substantially up to $2.1 billion 
over the request. The administration's request was $600 
million. Congress raised it to $2.1 billion, and Dr. Koplan 
came up recently and said we need at least $3 billion in 
additional funds to prepare for a biological assault. Is this 
where you would put your money if you had more?
    Dr. Lillibridge. I think it is two-pronged for us, 
Congressman Spratt. We think that having dealt with the 
bioterrorism issue for the past 3 or 4 years, and looking at 
the kinds of things we need to respond to and the breadth of 
our response and the fact that we have to respond through not a 
standing army, but through the State and local health 
departments, that our primary thrust would be twofold. One is 
to develop that critical public health infrastructure at the 
State and local level, and, second, hone those critical 
capacities of institutions like CDC, NIH and FDA to be there to 
provide consultation, response, and detect and control the 
epidemic, those sorts of things, and I believe a two-tiered 
approach would be best.
    We are certainly grateful for the interest in the CDC 
structure. It is an area that we have looked at and have 
brought to the attention of different folks, particularly the 
delegations here in the House and Senate, over the past years, 
and we are really grateful to have some attention on those 
issues.
    Mr. Spratt. Lee Hamilton and Newt Gingrich were here a 
couple of weeks ago and testified based upon the findings of 
their commission, and one of their recommendations which seemed 
to me to have sense was what we don't want to have. No 
question, the public health infrastructure is woefully 
inadequate. We need to strengthen it across the board, but they 
were suggesting, for a lot of these highly specialized 
emergency responses, that what you want is a regional 
capability, not a community-by-community, State-by-State 
capability; otherwise you will have a lot of duplication, a lot 
of stuff sitting in the parking lot waiting for things that 
don't actually happen.
    Dr. Lillibridge. I believe the talk about the Department in 
terms of our preparedness and planning efforts is beginning to 
center on regional planning and response. This is particularly 
important for the biologic or epidemic response that we talk 
about. That will unfold over a region of the United States 
statewide or perhaps nationwide, and that is going to be key to 
our planning and activities in the future, and we would 
certainly agree with that kind of thinking.
    Mr. Spratt. Thank you all for your testimony. There are 
plenty more questions I could ask, and maybe I will ask them in 
a one-on-one session at some time, but there are others here 
that would like to ask questions as well. Thank you for coming.
    Chairman Nussle. Mrs. McCarthy.
    Mrs. McCarthy. Thank you, and thank you for the testimony. 
I am actually finding it fascinating. I come from New York, so 
obviously there are a number of issues that we in New York are 
extremely concerned about, our subways, future attacks. Many 
feel strongly that we are probably going to have another attack 
in New York because it is a symbol. We don't know.
    Going back with talking about local response and working 
regionally, one of the things we did find, and hopefully are 
going to bring it up, after the initial attack the FEMA people 
were trying to get to New York, but because we had stopped all 
flights across the Nation, the people couldn't get on planes to 
get to New York really fast. I am bringing this up because I am 
sure you have heard of it, but I think in the future whether we 
have to shut down the airports, or whether we can't allow 
flights, there has to be some accommodation so that your people 
wherever they are would be able to get onto a plane to get to 
where they have to go and not get in cars and drive for 72 
hours.
    We all learned a lot on September 11. My concern is--and I 
know that you have to be very careful about this--that we are 
prepared next time, because we don't know where it is going to 
come from. In listening to your testimony and thinking, when 
you are starting to transport nuclear waste, are they being 
guarded? I am just thinking maybe like a terrorist? Would I be 
on one of these roads?
    I will be honest with you. Being on the Budget Committee, I 
never thought I would be dealing with these particular issues. 
So as a normal person I am trying to figure out how do I go 
back to my constituents and say, this is what we are doing to 
make sure these things don't happen. When Mr. Spratt went over 
the budget, and we very strongly here on the committee want to 
keep within our budget, but we also realize what the 
emergencies are, and I would like to ask and I know I am being 
parochial about this, but what would they do in New York with 
our subway system, with our bridges, certainly upstate New York 
with our water? I mean, all these things go through my mind. 
Are we prepared to really protect all these areas, and being 
that this is a nation of--we come and go freely, how do we 
protect everything that needs to be protected?
    Dr. Lillibridge. I will jump in and take the stab at that. 
One of the things for us, we are not physical security experts 
nor intelligence experts. We are health-related experts who are 
concerned about the medical and the public health components in 
that, and that as we begin to think about our preparedness 
effort and the piece that we could work best on, the broader we 
got in terms of contingency planning for mass casualties, 
shoring up things like the National Disaster Medical System for 
surge capacity to help State and local communities, and 
widening that net for early detection of diseases or chemical 
exposures seem to be a prudent investment into the fabric, 
whether it be emergency management or public health 
infrastructure at the State and local level.
    Mrs. McCarthy. Following through with that, especially in 
New York City, we have some tremendous hospitals. When you talk 
about your emergency response, are you talking about also on 
trying to educate the different departments in our city 
hospitals, and, to be honest with you, even on Long Island, 
because a lot of times we do get patients from the cities when 
they are overflowed? So are you talking about basically having 
resources go into our hospitals to make sure they are prepared, 
because they are not going to do it on their own because they 
are broke. They have no money.
    Dr. Lillibridge. Right. Some of the things we have done in 
the past is embarked on training of health care providers. That 
has turned out to be critically important for early detection 
and awareness, and we are probably in our third year of 
providing that kind of training and cooperation with the 
Department of Defense and other groups that go out to health 
providers through training courses, regional courses, distance-
based learning. I myself was in Valhalla just last week on a 
training initiative that involved regional hospitals and 
regional training.
    The other capacity on that is this is the first year our 
budget has a request for hospital preparedness funding, and 
that would be a new element for us to address these kinds of 
issues. I think that will be an important thing to follow, and 
it is going to help address some of these critical needs 
through planning and then follow-up preparedness activities.
    Mr. Mahaley. Congresswoman, Joe Mahaley from Energy.
    We had a lot of senior officials trapped around the country 
when they shut down all the airlines. Some of my folks drove 
from Albuquerque to Washington over a number of days. One of my 
office directors, I think, was in Minnesota. She showed up 
about a week later. It happened. Shame on us if we don't learn 
from it and make arrangements.
    I will tell you, when we are talking about our emergency 
response assets, we have dedicated military air that will move 
that, but that will take the most critical assets where we need 
them. But you are right, it is a problem that needs to be 
addressed.
    Shortly after September 11, I started attending the Justice 
Department Coordination Protection Working Group chaired by the 
Deputy Attorney General at that time. It is Larry Thompson, and 
it was evident from the first meeting that a lot of 
coordination was needed.
    You can address all of these problems to a certain extent. 
You are not going to protect every reservoir or everything, but 
the one thing you don't want to do is waste money. The key to 
that efficient spending is coordination. So what has happened 
with that Justice Department working group is it has been 
supplanted now by the Office of Homeland Security. The Homeland 
Security Office is doing, in my judgment, a critical job of 
trying to coordinate all these activities. That is the only way 
we are going to be able to address these very, very wide-
ranging threats with potential huge consequences.
    Mrs. McCarthy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Nussle. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. I want to thank our 
witnesses for appearing here and for your very helpful 
testimony.
    I would like to address my question to Dr. Lillibridge, at 
least initially. It has to do with the matter Mr. Spratt began 
to explore, the emergency supplemental appropriation directed 
toward bioterrorism preparedness mainly involving the CDC. As 
passed by the House, the bill contains $2.1 billion for this 
purpose, and that is an increase of nearly $600 million over 
the administration's request. As you know, Doctor, the CDC's 
Director, Dr. Jeffrey Koplan, has stated recently that the CDC 
needs at least $3 billion in additional funds to prepare for a 
biological assault, not the $2.1 billion contained in the House 
bill nor the $1.7 billion requested by the administration. This 
emergency infusion of funds, he argued, is necessary to 
adequately stockpile vaccines, to upgrade laboratories and to 
expand health surveillance nationwide.
    With that background I would like to ask you about your 
view of the funding needs. Of course, Dr. Koplan is not alone. 
His viewpoint has been mirrored by the American Public Health 
Association, the American Hospital Association, other experts 
and others on the front lines. Do you regard this supplemental 
as a down payment or a first installment on addressing 
remaining unfunded needs? Then in terms not just of the amount, 
but also the priorities, how adequate is the sense of 
priorities that this supplemental reflects? Are there others 
that need funding?
    So my question both goes to the overall amount of funding 
and also the way that funding is prioritized.
    Dr. Lillibridge. I would be delighted to answer that, 
Congressman Price. Let me begin by saying that the effort of 
public health preparedness is something we hope will continue 
over time. The status of public health declined over a period 
of two or three decades and will need consistent nurturing, 
development and building over time. The figure that was derived 
by the HHS and the administration, in discussions were derived 
and predicated largely, particularly the supplemental, on the 
kinds of things that we thought could be done right now, things 
that needed initial emphasis including the payment for a 
vaccine to get manufacturers moving, shoring up our stockpile 
around the threats of anthrax, and beginning to expand some of 
the issues on State and local preparedness. And those are the 
kinds of things that I think would be priorities for our kinds 
of development over time.
    I believe over time you would see less development in terms 
of purchases, of stockpiling, and then more emphasis over time 
on State and local health infrastructure and key components of 
key agencies and alert response capacities, particularly CDC, 
FDA, and so forth.
    Mr. Price. Do you have any reflections on the adequacy of 
the present levels of Federal support available to those State 
and local authorities? Do we need to reconsider that in light 
of what these local capacities look like, the new kinds of 
demands that are going to be placed on them, and, frankly, the 
many stresses and strains that State budgets are now subject 
to?
    Dr. Lillibridge. We don't dispute that there are tremendous 
needs at the State and local level. In fact, we have often been 
a champion of those. There is some new information coming in. 
We have done core capacity work. We have also caucused with 
State and local guilds about what kinds of infrastructure needs 
to be built and that this will be widespread over time for some 
duration of activity.
    We think the emphasis clearly remains on the kinds of 
things that CDC and the Secretary have spoken to in the past, 
and those are the laboratory capacities both at the State and 
local level, and I will give you sort of a highlight thumbnail 
sketch of where we are. We have about 81 State and local 
laboratories that have the capacities for advanced biological 
detection. That is a start and helps us maintain some regional 
capacity, but to include the full clinical laboratories, to 
include more agents will require an effort over time both at 
CDC and at the emphasis of the State and local level.
    Surveillance, our communications capacity, and indeed, as 
you well know--in terms of our information or dissemination of 
management capacities--that we are developing with State and 
local health departments, through our health alert network. 
When we started this effort, very few of our State and local 
health departments had the advanced information technology 
capacity to even receive health alerts. We are working on those 
things.
    So is this the right priority? Is this the right direction? 
I would say yes. Clearly infrastructure, key components of key 
agencies and developing the kind of concerted partnership with 
State and local community and the Federal component of HHS is 
the way to go.
    Mr. Price. Would you expect this thinking, these 
projections, to be mirrored in perhaps an additional 
supplemental request, or is it fair to expect this to be 
mirrored in the fiscal 2003 request?
    Dr. Lillibridge. Good question, sir. We think both 
actually. Administration, HHS is open to working with OMB, 
Congress throughout this year as new threats, new situations 
develop during this ongoing emergency.
    Second, we are working on the 2003 request, and it will 
reflect some expansion of these areas.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Chairman Nussle. Mrs. Clayton.
    Mrs. Clayton. Thank you, Mr. Chairman. I also thank the 
panelists. Although jurisdiction in the Budget Committee may 
not be all three of your areas, but the interest of the Budget 
Committee is widespread, and it gives us an opportunity to 
learn from you, so I appreciate the opportunity to hear what 
various agencies are doing.
    I want to follow up on the health as well. Coming from 
rural America, the infrastructure obviously is not there to 
receive it, but even when we try to get the supplement from the 
CDC sometime to supplement and disseminate the information they 
know, we are having a hard time understanding that. Can you--is 
it Dr. Lillibridge?
    Dr. Lillibridge. Yes ma'am.
    Mrs. Clayton. Would you just walk through what a county 
health official should expect to receive, given your capacity 
now, if they have an outbreak in bioterrorism, whether that be 
anthrax or some other threat right now?
    Dr. Lillibridge. I would be delighted. One of the things 
that I would like to mention is perhaps I could use Florida as 
an example.
    Mrs. Clayton. How about using North Carolina since I am 
from North Carolina.
    Dr. Lillibridge. Even better. Using North Carolina as an 
example of what might unfold, we can look at the already 
existing strengths in there that we have been working with in 
North Carolina, the health department and some of the local 
communities. As you know, over the past 3 years there has been 
resources moved into the State for things ranging from 
laboratory to surveillance activities, and then through our 
Metropolitan Medical Response System, key cities in North 
Carolina have received grants to develop local preparedness 
planning activities, and some of them are quite strong.
    What we would see unfold at the time of a crisis or when 
the alarm was sounded, you could expect to see that the public 
health medical community and those in emergency management and 
leadership positions in the State would be on high alert to 
evaluate the threat. We have done this perhaps 200 times over 
the past year, and most of these are ruled out until we had the 
recent anthrax event in Florida, New Jersey, New York and 
Connecticut. That would trigger a cascade of events that would 
bring in Federal responders from the health and law enforcement 
community to work with State and local authorities. This would 
involve perhaps components of stockpile, perhaps flying in 
locally to engage in prophylaxis, or to have medications or 
equipment ready to go.
    The second thing you would expect would be epidemiologists 
or disease detectives from CDC to arrive to help work with the 
disease detection investigation with both State and local 
authorities, looking at and following up in cases, looking at 
clues, validating disease.
    The third thing is that you would see an activation of the 
laboratory network. You would see specimens moving from A level 
to B level to C level labs and then back to CDC, and perhaps 
the facility at USAMRIID coordinated through law enforcement/
FBI channels. This has been drilled and practiced and gives us 
kind of an impression on what are the main lessons learned from 
these events, and clearly we get back to communications.
    Mrs. Clayton. Can I just interrupt? There is perhaps that 
in some places permitted in actuality, but more cases in theory 
have tested it out and wanted to have discussions around what 
the health response would be and how we would get CDC to 
interact with that; in fact, made efforts to call CDC to work 
with them. The health departments felt quite inadequate to face 
their own citizens to say their preparedness--and then I pulled 
off of your Web page North Carolina's bioterrorism plan, and 
when I got the director who had worked on that for the last 3 
years to say, well, Ms. Clayton, we do have that in theory, but 
we don't quite have that implemented as well.
    There were a lot of gaps and lot of reasons given to me why 
health professionals felt very insecure of speaking before the 
constituents, and we attempted to do that in Edgecombe County. 
We attempted to do that in Pitt County. We called the State 
person. I know they are training the health providers. In fact, 
they had a telecommunication where they were walking through 
that step with them. So apparently the State plans that we have 
need to be updated and validated by walking through that to see 
where those gaps are.
    Now, if it is not a process of not having to do it so--you 
haven't done it as thoroughly in all the places, or there is a 
need for new resources, I can just tell you are depending on a 
system that is untested, and so we shouldn't feel very 
confident that what is in place is even giving those who are on 
the front lines, our community health officials, the confidence 
to do what they need to do. They point out a lack of equipment, 
they point out a lack of information, and true, they know where 
to send a specimen to have it tested, but health education 
involves communication, and to the extent you can, you want to 
talk about prevention.
    I am not sure what is missing, but I suspect resources may 
be part of it. I don't subscribe to the fact that resources is 
all of it, but I suspect resource is part of it. Usually people 
are active in those areas of health where there is a critical 
need, so you don't put staff resources where they are not. 
There isn't a level of confidence nor capacity at the State 
level nor at the local levels, and the reason I can say this is 
because I have tested it.
    I am going to work with them, but I would also like to 
think that you would want to feel--because in your statement 
here you say the predication of a smallpox theory is based on 
working with coordination with local and State agencies. Well, 
incidents happen in local communities, incidents happen in 
States, and to the extent that where the incident happened we 
are not prepared, I don't care how sophisticated you are at 
CDC, it is not going to make much difference in responding to 
that crisis.
    So what would you say we need to do to make sure that our 
State and local----
    Dr. Lillibridge. We quite agree with you. One of the 
smallest areas of our preparedness effort over the last 3 years 
has been the preparedness planning element, and that has been 
less than $2 million per year in support of extremely large 
mobilization. One of the things that we requested was 
additional resources to address the planning at the State and 
local level, which for the first time will become a serious, 
significant part of our effort.
    We would quite agree with you that having all the bells and 
whistles and tools available without plans, knowledgeable and 
trained people to use them would seem less effective than had 
you spent the investment in planning and training. Those would 
be extremely important.
    The other thing is the issue of communications. We realize 
that the issue of communications extends way beyond the issue 
of simple notification. The health officers need training, 
access to prepackaged alerts. We need to have serious 
preparedness planning in the area of communication, a risk 
communication to populations. Our State and local health 
officers are going to need more help and training on that.
    Mrs. Clayton. Now, this question probably shouldn't go to 
you. I guess it should go to Mr. Baker, but inasmuch as the 
Washington Post have recently indicated that bin Laden now has 
something we call a dirty bomb, and also given the fact that 
Governor Ridge has just announced that we have a new alert, I 
don't know if the two are related to each other, to what extent 
are we prepared, or what should we be mindful of? What does 
this alert mean?
    Mr. Baker. Very good question. The work we are doing in 
Russia is securing material above 20 percent enriched. You can 
make a dirty bomb with 20 percent below enriched like uranium. 
The scare of the dirty bomb is not how many people it could 
kill, it is just putting some material with an explosive device 
that will explode and put radiation out. It is kind of like a 
little Chernobyl where people died of cancer. Some people very 
close to the blast could die.
    What we are doing now is we are looking into, at least our 
program in Russia, trying to secure this material that is below 
20 percent that you can make dirty bombs with and do as much as 
we can to make sure that this does not happen. It is a real 
threat. It is not nearly as sophisticated as a nuclear weapon, 
of course, but it is something that we are concerned about.
    Mrs. Clayton. So concentrating on Russia would take care of 
bin Laden?
    Mr. Baker. It would help at least secure this stuff that 
Russia--they can't steal the material out of Russia if we 
secure the material that is below 20 percent enriched.
    Mrs. Clayton. Is it the only source of it?
    Mr. Baker. Yes.
    Mrs. Clayton. So the only source for material for a dirty 
bomb is in Russia?
    Mr. Baker. No. I am sorry. It could be in other places 
also, so it is a very big concern.
    Mrs. Clayton. I am trying to get to the connection of the 
Washington Post saying bin Laden has the capacity. He is not in 
Russia; so he has the capacity where? If we know he has the 
capacity, how do we know that and don't know where he is? Help 
me understand why that is related to domestic security. So is 
there a relationship of the materials being here under disguise 
of people who are connected with that organization and to what 
extent we ought to be concerned if you have any responsibility 
that the defense is doing about it?
    Mr. Baker. There is a lot of nuclear material all over the 
world. Osama bin Laden could get it from many places. It is 
just not in Russia, of course. How we know he could have this 
and not know where he is located is, of course, through 
intelligence sources. Intelligence picks up a lot of things 
and, of course, I am sure some of it that we pick up in 
intelligence is from sources that they want us to pick up, so 
they may exaggerate what they have got. But you have at least 
got to take it in and consider that it may be true, but a lot 
of it may not be true.
    Mrs. Clayton. The final question, is there a danger that 
that source of materials may be here and that organization--why 
is that connected to our domestic threat?
    Mr. Baker. I will let Mr. Mahaley answer that for security, 
about it being here.
    Mr. Mahaley. Ma'am, security is about reducing risk, and 
the nonproliferation program that Mr. Baker administers is 
attempting to plug one hole. I don't know what Mr. bin Laden or 
some other terrorist may have here, but we can't discount the 
possibilities. The government is engaged in measures, but it is 
going to be something I can't go into in an open hearing. But 
the----
    Mrs. Clayton. But is there a connection?
    Mr. Mahaley. The intent----
    Mrs. Clayton. Is it just the media putting together, is 
there a connection here for us----
    Mr. Mahaley. Whether it is out in the media or not, I'm 
sure you understand I cannot go into the material that I get 
briefed in an open hearing .
    Mrs. Clayton. I respect that.
    Mr. Mahaley. OK. I can offer you a closed hearing or a 
hearing in our facilities, or a briefing, I should say, that I 
would go into much more detail.
    I will let the media speculation speak for itself, but we 
cannot discount that possibility, and the Department of Energy 
does have some responsibilities in that area. General McBroom 
actually leads those efforts, and I am sure he and I will be 
pleased to meet with you in any capacity to go into our efforts 
in more detail.
    Mrs. Clayton. Thank you.
    Thank you, Mr. Chairman.
    Mr. Baker. Mr. Chairman, I would like to add one more thing 
for you, sir, to this committee. When Congressman Spratt asked 
if one could use more money, one could give us all the money in 
the world, but if they don't give money in an area called 
program direction, which is people and salaries--it is more 
difficult for us to do our job. Congress cut the NNSA program 
direction below the President's budget by $25 million. At the 
same time, we have accelerated these programs.
    The President has accelerated them. The Secretary of Energy 
has accelerated them, and we are going to burn up people, 
because our people are in Russia.
    Program direction is salaries and travel--you have got to 
travel to do our work. So it is one area, sir, that I would 
like to go on record that we need more money. We need help, and 
we may ask for a reprogramming, because if it is not in the 
program direction, we may have the money to do it, but if we 
don't have the people to do it, we can't do it. Thank you, sir.
    Chairman Nussle. Thank you.
    Are there any other final comments that witnesses would 
like to make?
    Then I would like to thank you. I think to follow up on 
what Mrs. Clayton was saying, if we can speculate about it, 
they are probably thinking about it, too, and dreaming up--if 
we have learned anything from September 11, if we can speculate 
about it, they are thinking about doing it, and that is in part 
why we are talking today about restructuring the government 
into homeland security to take these new threats into 
consideration and to do something about it. I know we only 
scratched the surface today; we probably barely even did that. 
We could go on and on for hours talking about these issues, but 
we have to start somewhere, and we appreciate your effort to 
help us begin that task up here in Congress as we explore next 
year's budget.
    Please continue to give us your thoughts and your ideas. We 
are all in this together, and we want to be on the same team, 
and we appreciate the good work that you and your folks do on 
behalf of all of us so that we can sleep a little bit more 
soundly at night. And that is not easy to do these days, it 
seems, but we appreciate the good work that you and the people 
that work for you do for us. So thank you very much. And with 
that, the hearing is adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
